<html>
<title> - THE CONTINUED THREAT OF CORRUPTION TO U.S. BORDER LAW ENFORCEMENT AGENCIES</title>
<body><pre>[Senate Hearing 106-158]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-158
 
                 THE CONTINUED THREAT OF CORRUPTION TO
                  U.S. BORDER LAW ENFORCEMENT AGENCIES

=======================================================================

                                HEARING

                               before the

                     SENATE CAUCUS ON INTERNATIONAL
                           NARCOTICS CONTROL
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION



                               __________

                             APRIL 21, 1999

                               __________

  Printed for the use of the Senate Caucus on International Narcotics 
                                Control




                    U.S. GOVERNMENT PRINTING OFFICE
58-373 CC                   WASHINGTON : 1999

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


            SENATE CAUCUS ON INTERNATIONAL NARCOTICS CONTROL

                               __________

                       ONE HUNDRED SIXTH CONGRESS



                   CHARLES E. GRASSLEY, Iowa Chairman

                  JOSEPH R. BIDEN, Delaware, Co-Chair

JEFF SESSIONS, Alabama               BOB GRAHAM, Florida
MIKE DEWINE, Ohio                    DIANNE FEINSTEIN, California
SPENCER ABRAHAM, Michigan

                      Wm. J. Olson, Staff Director

                 Sheryl Walter, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                        OPENING STATEMENTS

Senator Charles E. Grassley......................................     1
Senator Bob Graham...............................................    15
Senator Dianne Feinstein.........................................    18

                             PANEL I

Richard Stana, Associate Director, Administration of Justice 
  Issues, General Accounting Office..............................     3
    Prepared Statement...........................................     6

                 SUBMITTED QUESTIONS FOR PANEL I

Richard Stana, Associate Director, Administration of Justice 
  Issues, General Accounting Office..............................    48

                             PANEL II

Raymond W. Kelly, Commissioner, U.S. Customs Service.............    21
    Prepared Statement...........................................    23
Doris M. Meissner, Commissioner, U.S. Immigration and 
  Naturalization Service.........................................    26
    Prepared Statement...........................................    27

                 SUBMITTED QUESTIONS FOR PANEL II

Raymond W. Kelly, Commissioner, U.S. Customs Service.............    50
Doris M. Meissner, Commissioner, U.S. Immigration and 
  Naturalization Service.........................................    59


   THE CONTINUED THREAT OF CORRUPTION TO U.S. BORDER LAW ENFORCEMENT 
                                AGENCIES

                       WEDNESDAY, APRIL 21, 1999

                                       U.S. Senate,
                 Caucus on International Narcotics Control,
                                                    Washington, DC.
    The caucus met, pursuant to notice, at 2:03 p.m., in room 
H-216, Hart Senate Office Building, Hon. Charles E. Grassley 
(chairman of the caucus) presiding.
    Present: Senators Grassley, Graham, Feinstein, and 
Sessions.

  STATEMENT OF SENATOR CHARLES E. GRASSLEY, SENATE CAUCUS ON 
                INTERNATIONAL NARCOTICS CONTROL

    Senator Grassley. Good afternoon, everybody. I will call 
the hearing to order. I am Senator Chuck Grassley. I am 
chairman of the Caucus on International Narcotics Control, and 
I welcome everybody, particularly, I think our witnesses who 
have taken time out of their busy schedule to be with us.
    Today's hearing is an oversight hearing to examine the 
Southwest Border operations of the U.S. Customs Service and 
also the Immigration and Naturalization Service. We will hear 
testimony from the General Accounting Office and from the 
commissioners, respectfully, of the U.S. Customs and the 
Immigration and Naturalization Service.
    This hearing will focus on the findings and also on the 
recommendations of a GAO report on these agencies. The report 
is a followup study based on a hearing that this caucus held in 
May 1997 with these very same agencies. I appreciate the job 
that these agencies do on the front lines. It is difficult to 
comprehend the mind-numbing volume of business that these 
agencies must handle every year.
    On average, almost one and a half times the population of 
the United States crosses our border annually. That is close to 
400 million people. Each of these entrants, whether citizens or 
legal aliens must be greeted and their relevant travel 
documents inspected and those documents processed, and this 
must be done obviously expeditiously. It must be done with 
courtesy, but it must also be thorough. In addition, over 10 
million containers enter our ports annually and almost twice 
that in commercial vehicles of all sorts.
    In the last several years alone, the volume of commercial 
vehicles crossing the Southwest Border has grown by almost 150 
percent. While most of the trade and passenger travel is 
legitimate, a small percentage is not. Hidden in this volume of 
passengers and cargo is an illegal trade that takes aim at the 
well-being of the people of this country. Terrorists, drug 
traffickers and smugglers take advantage of legitimate business 
and travel to pursue their own criminal agendas. It is the men 
and women of the Customs Service and the Immigration and 
Naturalization Service that act as our front-line defense 
against this threat.
    The conditions under which many of these fine people work 
are not always the best, but we always expect the best of these 
public servants. Happily, as the General Accounting Office 
report makes clear, our expectation is generally met in an 
exemplary fashion. There is, today, not a problem of systemic 
corruption of these agencies, but neither are they immune to 
individual instances of corruption or the potential for greater 
harm in the future.
    It is to examine this potential and to explore preventive 
measures that this hearing is meant to address so these 
individual instances don't become systemic corruption. Here in 
this area of individual, the picture is less reassuring. As we 
will hear today, both of these agencies have a variety of 
internal shortcomings that need immediate and ongoing 
continuing attention. The integrity of these services must be 
one of our most important missions.
    We must ensure that the potential for corruption is 
minimized, we must vigorously punish instances of corruption 
when we find them, and we must provide the investigate tools to 
make this possible. We must reward whistle blowers and not 
punish them. We must make integrity priority No. 1, and we must 
hold individuals and agencies accountable.
    It is important to recognize that the environment on the 
Southwest Border is a very dangerous one. In many respects, the 
situation is deteriorating Many of our citizens along the 
border feel threatened. It is clear that drug traffickers are 
using violence and the threat of violence to intimidate 
residents on our borders and along them. These same drug thugs 
are also using bribes and threats to corrupt Mexican officials 
in a very concerted way.
    Drug lords in the Mexican State of Baja, CA, operate with 
what appears to be complete immunity. Local authorities are 
either unable to confront them or they actually work for them. 
When Mexican Federal authorities appear to be effective, they 
are murdered, and their murderers remain unpunished and at 
large. In this area and in others, lawlessness prevails, and it 
is a problem that does not stop at the frontier.
    While we must work with Mexico to reverse this problem, we 
also must recognize that our own agents along the border are at 
risk not only from violence but also from corruption.
    In the May 1997 hearing previously referred to, we heard 
from a former U.S. Federal officer on how he was suborned. He 
was corrupted, and it was no accident. Drug traffickers 
targeted him for corruption and worked on him for months, then 
slowly drew him into a web of corruption that led him to betray 
his duty and his trust. Knowing this, knowing this potential, 
we cannot be complacent in our response. We must ensure that 
such cases remain singular. We must ensure a proactive and 
vigorous response to prevent such instances from multiplying, 
and it is incumbent upon us to provide the tools and the means 
to do this.
    Today, we will examine the problems. In the future, we will 
work to build solutions based upon the findings that we have.
    Our first panel testifying today comes from the General 
Accounting Office. By the way, if my colleagues come and any of 
them--I am saying this to their staff--if any of my colleagues 
come and for some reason cannot stay for a long period of time 
and desire to have an opening statement, I would be glad to 
break into the testimony and questioning of others to do that.
    I say, once again, good afternoon, and I welcome all of 
you, as I have said in my opening comment. Our first panel 
testifying today comes from the General Accounting Office. 
Their March report entitled, ``INS and Customs Can Do More to 
Prevent Drug-Related Employee Corruption,'' is the reason why 
we are here today.
    Richard Stana is the associate director in the 
Administration of Justice Issues, and he handles these issues 
for the General Accounting Office. So, Mr. Stana, would you 
please come, and we will listen to your testimony and then we 
will have questions.
    Would you please introduce people that are with you.

STATEMENT OF RICHARD STANA, ASSOCIATE DIRECTOR, ADMINISTRATION 
 OF JUSTICE ISSUES, GENERAL ACCOUNTING OFFICE; ACCOMPANIED BY 
 WELDON McPHAIL, ASSISTANT DIRECTOR, ADMINISTRATION OF JUSTICE 
ISSUES, AND JAY JENNINGS, EVALUATOR, ADMINISTRATION OF JUSTICE 
                             ISSUES

    Mr. Stana. Thank you, Mr. Chairman. At my right is Weldon 
McPhail. He is an assistant director in the Administration of 
Justice Issue area and on my left is Jay Jennings who is the 
evaluator in charge of this particular assignment.
    Mr. Chairman and members of the Senate caucus, I am pleased 
to be here today to discuss the results of our review of INS's 
and Customs' effort to address employee corruption on the 
Southwest Border. Some INS and Customs employees have engaged 
in a variety of illegal drug-related activities, including 
waving drug lords through ports of entry, coordinating the 
movement of drugs across the border, transporting drugs past 
Border Patrol checkpoints, selling drugs and disclosing drug 
intelligence information.
    The integrity policies and procedures adopted by INS and 
Customs are supposed to ensure that their employees, especially 
those in positions that could affect smuggling of illegal drugs 
into the country are of acceptable integrity and, failing that, 
to detect corruption as quickly as possible.
    Our report and prepared statement discuss in detail the 
nature of the agencies' integrity programs, the manner in which 
they have been implemented and the facts and circumstances 
surrounding the conviction of 28 INS and Customs employees for 
drug-related corruption that occurred on the Southwest Border 
from 1992 to 1997. These 28 cases do not include instances 
where the drug-related count was dropped or the employee pled 
guilty to a lesser charge or the employee became a fugitive or 
overdosed before conviction or former employees were convicted 
after they resigned and obviously where employee corruption was 
not detected.
    In my oral statement, I would like to focus on three main 
points. First, neither INS or Customs is taking full advantage 
of its policies and procedures to address the threat of 
corruption. Second, the Justice IG, Customs and the FBI have 
not identified internal control weaknesses that surface from 
past corruption episodes so that they could be corrected. And, 
third, neither INS or Customs has completed an evaluation of 
their policies and procedures to determine what works and how 
well. As a result, neither agency can be sure that adequate 
internal controls are in place to detect and prevent employee 
corruption.
    With respect to the first point on Agency policies and 
procedures, both agencies rely mainly on mandatory background 
investigations for new staff and reinvestigations of employees 
at 5-year intervals, as well as basic integrity training.
    While the agencies generally completed background 
investigations for new hires by the end of their first year on 
the job, as required, reinvestigations were typically overdue, 
in some instances by as many as 3 years. As of March 1998, for 
the samples we reviewed, over three quarters of the required 
reinvestigations were not completed when due, and 42 percent of 
the required INS reinvestigations and 54 percent of the 
required Customs reinvestigations were still not done.
    As for training, both agencies provided 7 or 8 hours of 
integrity training interspersed with other topics during basic 
training. However, while INS and Customs advocate integrity 
training beyond basic training, it was not required, and for 
the samples we reviewed, 60 percent of Immigration inspectors, 
79 percent of Border Patrol agents and 24 percent of Customs 
inspectors received no advanced integrity training during the 
2\1/2\-year period we examined.
    My second point involves the missed opportunities to 
identify and correct internal control weaknesses that surfaced 
during past corruption episodes. Neither the Justice OIG nor 
the Customs Office of Internal Affairs documented that they 
used closed drug-related corruption cases to identify internal 
control weaknesses. In addition, the FBI did not identify and 
report internal control weaknesses in the cases it investigated 
because it was not required to do so.
    Our review of closed drug-related corruption cases 
identified internal control weaknesses that allowed drug 
smugglers to choose their inspection lanes at the port of 
entry, law enforcement officers and their vehicles to pass 
uninspected through ports of entry on Border Patrol checkpoints 
and Immigration inspectors, Border Patrol agents and Customs 
inspectors to inspect individuals with whom they had close 
personal relationships.
    Our report contains many examples where existing internal 
controls were breached by corrupt officials. In several 
examples, random assignment of inspectors and shifting of 
inspectors from one booth to another did not prevent corrupt 
INS and Customs officials from allowing drug-laden vehicles to 
enter the United States. In some cases, the inspectors 
communicated their lane assignment and the time they would be 
on duty to the drug smuggler. In other cases, the drug smuggler 
used a spotter to identify the booth where the corrupt 
inspector was working and directed the drug-ladened vehicle to 
that lane. These schemes succeeded because the drivers of the 
drug-ladened vehicles could choose the lane they wanted to use 
for inspection purposes.
    In other examples, drug smugglers believed that coworkers, 
relatives and friends of INS or Customs officials or law 
enforcement officials would not be inspected or would be given 
preferential treatment in the inspection process. In one case, 
the inspector agreed to allow her boyfriend to smuggle drugs 
across the border. In another case, two INS detention officers 
used INS detention buses and vans to transport drugs 
psychiatrist a Border Patrol checkpoint, believing that they 
would not be inspected out of professional courtesy.
    INS and Customs did not have written recusal policies 
concerning the performance of inspections on friends and 
relatives nor did they have written policies on the inspection 
of law enforcement personnel or vehicles.
    My third main point is that INS and Customs have not 
evaluated the effectiveness of their integrity assurance 
procedures to see what is effective and what needs to be 
improved. One way to evaluate the procedures would be to use 
drug-related investigative case information. For example, the 
objective background investigations or reinvestigations is to 
determine an individual's suitability for employment, including 
whether he or she has the required integrity.
    All 28 of the INS and Customs employees who were convicted 
for drug-related crimes received background investigations or 
reinvestigations that determined they were suitable. Our review 
of the 28 cases also showed that 26 of the 28 were offered or 
received payment for their illegal acts and that two were 
substantially indebted and four were living beyond their means. 
And yet this vulnerability was not detected due to inadequate 
financial reporting requirements or the lack of analysis of 
available information.
    For its part, INS requires its employees to provide only 
limited financial information, mostly on debts. Without more 
complete information on liabilities and assets, a thorough 
assessment cannot be made. For example, one convicted 
Immigration inspector said he became involved with a drug 
smuggler because he had substantial credit card debt and was on 
the verge of bankruptcy. Given the limited financial 
information Immigration inspectors are required to provide, he 
might not have been identified as a potential risk.
    In another case, a mid-level Border Patrol agent owned a 
house valued at about $200,000, an olympic-size swimming pool 
in its own building, a 5-car garage, 5 automobiles, 1 van, 2 
boats, about 100 weapons, $45,000 in Treasury bills, 40 acres 
of land, and he had no debt. Given the current background 
investigation or reinvestigation financial reporting 
requirements for Border Patrol agents, this agent would have 
had nothing to report, since he was not required to report his 
assets, and he had no debts to report.
    In comparison, Customs requires its employees to report 
information on both financial assets and liabilities. However, 
our review showed that Customs does not fully use all of the 
financial information. Rather, it mostly compares reported 
liabilities with debts listed on a credit report to determine 
if all debts were reported. Thus, Customs current use of 
financial information would not have helped identify employees 
living beyond their means or whose debts were excessive.
    Our report contained 11 recommendations that addressed the 
need to evaluate integrity training and background 
investigations, to complete reinvestigations when due, to 
strengthen internal controls at the Southwest Border crossings, 
to upgrade the requirements for and the use of employee 
financial information and to require investigative agencies to 
review closed cases to identify internal control weaknesses.
    Mr. Chairman, the corruption of some INS and Customs 
employees by persons involved in the drug trade is a serious 
and continuing threat, particularly given the enormous sums of 
money being generated by drug trafficking. INS and Customs need 
to reduce their vulnerability to corruption through continuous 
vigilance and oversight of the program activities that placed 
their employees on the front line of the Nation's drug 
interdiction efforts.
    This concludes my oral statement. Our team would be happy 
to answer any questions you may have.
    [The prepared statement of Mr. Stana follows:]
      Prepared Statement of Richard M. Stana, Associate Director, 
     Administration of Justice Issues, General Government Division
ins and customs can do more to prevent drug-related employee corruption
    Some Immigration and Naturalization Service (INS) and U.S. Customs 
Service employees on the Southwest Border have engaged in a variety of 
illegal drug-related activities, including waving drug loads through 
ports of entry, coordinating the movement of drugs across the Southwest 
Border, transporting drugs past Border Patrol checkpoints, selling 
drugs, and disclosing drug intelligence information.
    Both INS and Customs have policies and procedures designed to help 
ensure the integrity of their employees. However, neither agency is 
taking full advantage of its policies, procedures, and the lessons to 
be learned from closed corruption cases to fully address the increased 
threat of employee corruption on the Southwest Border. These policies 
and procedures consist mainly of mandatory background investigations 
for new staff and 5-year reinvestigations of employees, as well as 
basic integrity training. While the agencies generally completed 
required background investigations for new hires by the end of their 
first year on the job, reinvestigations were typically overdue, in some 
instances, by as many as 3 years. Both INS and Customs provided 
integrity training to new employees during basic training, but advanced 
integrity training was not required.
    The Departments of Justice and the Treasury have different 
organizational structures but similar policies and procedures for 
handling allegations of drug-related misconduct by INS and Customs 
employees. At Justice, the Office of the Inspector General (OIG) is 
generally responsible for investigating criminal allegations against 
INS employees. GAO found that the Justice OIG generally complied with 
its policies and procedures for handling allegations of drug-related 
misconduct. At the Treasury, Customs' Office of Internal Affairs is 
generally responsible for investigating both criminal and noncriminal 
allegations against Customs employees. Customs' automated case 
management system and its investigative case files did not provide the 
necessary information to assess compliance with investigative 
procedures.
    INS and Customs have missed opportunities to learn lessons and 
change their policies and procedures for preventing the drug-related 
corruption of their employees. The Justice OIG and Customs' Office of 
Internal Affairs are required to formally report internal control 
weaknesses identified from closed corruption cases, but have not done 
so. GAO's review of 28 cases involving INS and Customs employees 
assigned to the Southwest Border, who were convicted of drug-related 
crimes in fiscal years 1992 through 1997, revealed internal control 
weaknesses that were not formally reported and/or corrected. These 
weaknesses included instances where (1) drug smugglers chose the 
inspection lane at a port of entry, (2) INS and Customs employees did 
not reuse themselves from inspecting individuals with whom they had 
close personal relationships, and (3) law enforcement personnel were 
allowed to cross the Southwest Border or pass Border Patrol checkpoints 
without inspection. Also, INS and Customs had not formally evaluated 
their integrity procedures to determine their effectiveness. GAO made 
recommendations in response to these weaknesses.
    Mr. Chairman and Members of the Caucus: I am pleased to be here 
today to discuss the serious and continuing threat of corruption to 
Immigration and Naturalization Service (INS) and U.S. Customs Service 
employees along the Southwest Border by persons involved in the illegal 
drug trade. The enormous sums of money being generated by drug 
trafficking have increased the threat for bribery. It is a challenge 
that INS, Customs, and other law enforcement agencies must overcome at 
the border.
    My testimony focuses on (1) the extent to which INS and Customs 
have and comply with policies and procedures for ensuring employee 
integrity; (2) an identification and comparison of the Departments of 
Justice's and the Treasury's organizational structures, policies, and 
procedures for handling allegations of drug-related employee misconduct 
and whether the policies and procedures are followed; (3) an 
identification of the types of illegal drug-related activities in which 
INS and Customs employees on the Southwest Border have been convicted; 
\1\ and (4) the extent to which lessons learned from corruption cases 
closed in fiscal years 1992 through 1997 have led to changes in 
policies and procedures for preventing the drug-related corruption of 
INS and Customs employees.
---------------------------------------------------------------------------
    \1\ In this report, if employees entered guilty pleas, we 
considered them to have been convicted of the crime.
---------------------------------------------------------------------------
    This statement is based on our March 30, 1999, report \2\ on drug-
related employee corruption. Our statement makes the following points:
---------------------------------------------------------------------------
    \2\ Drug Control: INS and Customs Can Do More To Prevent Drug-
Related Employee Corruption (GAO/GGD-99-31, Mar. 30, 1999).
---------------------------------------------------------------------------
    <bullet> INS' and Customs' compliance with their integrity 
procedures varied.
    <bullet> Justice's Office of the Inspector General (OIG) and INS 
generally complied with investigative procedures, but Customs' 
compliance was uncertain.
    <bullet> Opportunities to learn lessons from closed corruption 
cases have been missed.
                               background
    Stretching 1,962 miles from Brownsville, TX, to Imperial Beach, CA, 
the Southwest Border has been a long-standing transit area for illegal 
drugs entering the United States. According to the Department of State, 
the Southwest Border is the principal transit route for cocaine, 
marijuana, and methamphetamine entering the United States. INS and 
Customs are principally responsible for stopping and seizing illegal 
drug shipments across the Southwest Border. At the ports of entry, 
about 1,300 INS and 2,000 Customs inspectors are to check incoming 
traffic to identify both persons and contraband that are not allowed to 
enter the country. Between the ports of entry and along thoroughfares 
in border areas, about 6,300 INS Border Patrol agents are to detect and 
prevent the illegal entry of persons and contraband.
    The corruption of INS or Customs employees is not a new phenomenon, 
and the 1990s have seen congressional emphasis on ensuring employee 
integrity and preventing corruption. A corrupt INS or Customs employee 
at or between the ports of entry can help facilitate the safe passage 
of illegal drug shipments. The integrity policies and procedures 
adopted by INS and Customs are designed to ensure that their employees, 
especially those in positions that could affect the smuggling of 
illegal drugs into the United States, are of acceptable integrity and, 
failing that, to detect any corruption as quickly as possible.
ins and customs generally completed background investigations, but not 
                       reinvestigations, when due
    INS and Customs follow Office of Personnel Management (OPM) 
regulations, which require background investigations to be completed 
for new hires by the end of their first year on the job. Generally, the 
background investigations included a credit check, criminal record 
check, contact with prior employers and personal references, and an 
interview with the employee. Our review found that background 
investigations for over 99 percent of the immigration inspectors, 
Border Patrol agents, and Customs inspectors hired during the first 
half of fiscal year 1997 were completed by the end of their first year 
on the job.\3\
---------------------------------------------------------------------------
    \\3\\ We restricted our analysis of immigration inspectors and 
Border Patrol agents hired in fiscal year 1997 to those hired by March 
8, 1997, and of Customs inspectors hired in fiscal year 1997 to those 
hired by March 25, 1997. This is because we received personnel data 
current as of March 1998, the 1-year anniversaries of those dates, and 
because OPM allows agencies to employ individuals in a ``subject to 
investigation'' status for up to 1 year. A background investigation 
should be completed during that time.
---------------------------------------------------------------------------
    OPM also requires immigration inspectors, Border Patrol agents, and 
Customs inspectors to be reinvestigated at 5 year intervals from the 
date they enter on duty. The objective of these reinvestigations is to 
ensure these employees' continuing suitability for their positions. As 
with background investigations, contractors did the reinvestigations 
and INS and Customs were responsible for making the final 
determinations on suitability. However, INS and Customs did not 
complete reinvestigations within the required 5 year time frame for 
over three-fourths of the selected Southwest Border personnel scheduled 
for reinvestigations in fiscal years 1995 through 1997. In some 
instances, reinvestigations were as many as 3 years overdue.
    To the extent that a reinvestigation constitutes an important 
periodic check on an employee's continuing suitability for employment 
in a position where he or she may be exposed to bribery or other types 
of corruption, the continuing reinvestigation backlogs at both agencies 
leave them more vulnerable to potential employee corruption. As of 
March 1998, INS had not yet completed 513 overdue reinvestigations of 
immigration inspectors and Border Patrol agents. Customs had a backlog 
of 421 overdue reinvestigations.
  basic integrity training was required and advanced training was not
    Newly hired immigration inspectors, Border Patrol agents, and 
Customs inspectors are required to attend basic training. As part of 
their basic training, new employees are to receive training courses on 
integrity concepts and expected behavior, including ethical concepts 
and values, ethical dilemmas and decisionmaking, and employee conduct 
expectations. This integrity training provides the only required 
integrity training for all immigration inspectors, Border Patrol 
agents, and Customs inspectors. For Border Patrol agents, 7 of 744 
basic training hours are to be devoted to integrity training. For 
Customs inspectors, 8 of 440 basic training hours are to be devoted to 
integrity training. INS immigration inspectors are to receive integrity 
training as part of their basic training, but it is interspersed with 
other training rather than provided as a separate course. Therefore, we 
could not determine how many hours are to be devoted specifically to 
integrity training.
    We selected random samples of 100 immigration inspectors, 101 
Border Patrol agents, and 100 Customs inspectors to determine whether 
they received integrity training as part of their basic training. 
Agency records we reviewed showed that 95 of 100 immigration 
inspectors, all 101 Border Patrol agents, and 88 of 100 Customs 
inspectors had received basic training. According to INS and Customs 
officials, the remaining employees likely received basic training, but 
it was not documented in their records.
    Justice OIG, INS, and Customs officials advocated advanced 
integrity training for their employees to reinforce the integrity 
concepts presented during basic training.\4\ The Justice OIG, INS' 
Office of Internal Audit, and Customs provide advanced integrity 
training for INS and Customs employees.
---------------------------------------------------------------------------
    \4\ Advanced integrity training is any nonmanagerial integrity 
training provided to employees following completion of basic training.
---------------------------------------------------------------------------
    While this advanced training has been available to immigration 
inspectors, Border Patrol agents, and Customs inspectors, they were not 
required to take it or any additional integrity training beyond what 
they received in basic training. Consequently, some immigration 
inspectors, Border Patrol agents, and Customs inspectors assigned to 
the Southwest Border had not received any advanced integrity training 
in over 2 years.
    Based on a survey of random samples of immigration inspectors, 
Border Patrol agents, and Customs inspectors assigned to the Southwest 
Border, we found that during fiscal years 1995 through 1997, 60 of 100 
immigration inspectors agents received no advanced integrity training. 
In addition, 60 of 76 Border Patrol agents received no advanced 
integrity training during the almost 2\1/2\-year period we examined.\5\ 
The Customs survey indicated that 24 of 100 Customs inspectors received 
no advanced integrity training during this period.
---------------------------------------------------------------------------
    \5\ INS did not provide us with requested training data for 25 of 
the 101 Border Patrol agents in our sample.
---------------------------------------------------------------------------
 justice oig and ins generally complied with investigative procedures, 
                 but customs' compliance was uncertain
    The Departments of Justice and the Treasury have established 
procedures for handling allegations of employee misconduct. Misconduct 
allegations arise from numerous sources, including confidential 
informants, cooperating witnesses, anonymous tipsters, and whistle-
blowers. For example, whistle-blowers can report alleged misconduct 
through the agencies' procedures for reporting any suspected 
wrongdoing. INS and Customs have policies that require employees to 
report suspected wrongdoing.
    We selected five Justice OIG procedures to evaluate compliance with 
the processing of employee misconduct allegations. In a majority of the 
cases we reviewed, the Justice OIG complied with its procedures for 
receiving, investigating, and resolving drug-related employee 
misconduct allegations. For example, monthly interim reports were 
prepared as required in 28 of 39 opened cases we reviewed. In the 
remaining 11 cases, either some information was missing in interim 
reports or there were no interim reports in the case file.
    INS' Office of Internal Audit complied with its procedures for 
receiving and resolving employee misconduct allegations in all of its 
cases.
    Because Customs' Office of Internal Affairs' automated case 
management system did not track adherence to Customs' processing 
requirements, we could not readily determine if the Office of Internal 
Affairs staff complied with their investigative procedures.
    Customs' automated system is the official investigative record. It 
tracks and categorizes misconduct allegations and resulting 
investigations and disciplinary action. The investigative case files 
are to support the automated system in tracking criminal investigative 
activity and contain such information as printed records from the 
automated system, copies of subpoenas and arrest warrants, and a 
chronology of investigative events. Based on these content criteria and 
our file reviews, the investigative case files are not intended to and 
generally do not document the adherence to processing procedures.
   opportunities to learn lessons from closed corruption cases have 
                              been missed
    Our analysis of the 28 closed cases revealed that drug-related 
corruption in these cases was not restricted to any one type, location, 
agency, or job. Corruption occurred in many locations and under various 
circumstances and times, underscoring the need for comprehensive 
integrity procedures that are effective. The cases also represented an 
opportunity to identify internal control weaknesses.
    The 28 INS and Customs employees engaged in one or more drug-
related criminal activities, including
    <bullet> waving drug-laden vehicles through ports of entry,
    <bullet> coordinating the movement of drugs across the Southwest 
Border,
    <bullet> transporting drugs past Border Patrol checkpoints,
    <bullet> selling drugs, and
    <bullet> disclosing drug intelligence information.
    The 28 convicted employees (19 INS employees and 9 Customs 
employees) were stationed at various locations on the Southwest Border. 
Six each were stationed in E1 Paso, TX, and Calexico, CA; four were 
stationed in Douglas, AZ; three were stationed in San Ysidro, CA; two 
each were stationed in Hidalgo, TX, and Los Fresnos, TX; and one each 
was stationed in Naco, AZ, Chula Vista, CA, Bayview, TX, Harlingen, TX, 
and Falfurrias, TX.
    The 28 INS and Customs employees who were convicted for drug-
related crimes included 10 immigration inspectors, 7 Customs 
inspectors, 6 Border Patrol agents, 3 INS Detention Enforcement 
Officers (DEO), 1 Customs canine enforcement officer, and 1 Customs 
operational analysis specialist. All but the three had anti-drug 
smuggling responsibilities. Twenty-six of the convicted employees were 
men; 2 were women. The employment histories of the convicted employees 
varied substantially.
    In 19 cases, the employees acted alone, that is, no other INS or 
Customs employees were involved in the drug-related criminal activity. 
In the remaining nine cases, two or more INS and/or Customs employees 
acted together. Of the 28 cases, 23 originated from information 
provided by confidential informants or cooperating witnesses, and 5 
cases originated from information provided by agency whistle-blowers. 
Prison sentences for the convicted employees ranged from 30 days, for 
disclosure of confidential information, to life imprisonment for drug 
conspiracy, money laundering, and bribery. The average sentence was 
about 10 years.\6\
---------------------------------------------------------------------------
    \6\ The average prison sentence calculation does not include two 
former employees sentenced to life imprisonment, and one former 
employee who fled the country prior to sentencing. Information is 
provided only on the imprisonment portion of the sentences.
---------------------------------------------------------------------------
Drug-Related Corruption Cases Were Not Use to Learn Lessons
    Both the Justice OIG and Customs procedures require them to 
formally report internal control weaknesses identified during 
investigations, including drug-related corruption investigations 
involving INS and Customs employees. Generally, the Justice OIG and 
Customs' Office of Internal Affairs, respectively, have lead 
responsibility for investigating criminal allegations involving INS and 
Customs employees. Reports of internal control weaknesses are to 
identify any lessons to be learned that can be used to prevent further 
employee corruption. The reports are to be forwarded to agency 
officials who are responsible for taking corrective action. Reports are 
not required if no internal control weaknesses are identified.
    In the 28 cases involving INS or Customs employees who were 
convicted for drug-related crimes in fiscal years 1992 through 1997, no 
reports were prepared. We concluded from this that either (1) there 
were no internal control weaknesses revealed by, or lessons to be 
learned from, these corruption cases or (2) opportunities to identify 
and correct internal control weaknesses have been missed, and thus INS' 
and Customs' vulnerability to employee corruption has not been reduced.
    Justice's OIG investigated 13 of the 28 cases. The investigative 
files did not document whether procedures were reviewed to identify 
internal control weaknesses. Further, there were no reports identifying 
internal control weaknesses. According to a Justice OIG official, no 
reports are required if no weaknesses are identified, and he could not 
determine why reports were not prepared in these cases.
    Customs' Office of Internal Affairs' Internal Affairs Handbook 
provides for the preparation of a procedural deficiency report in those 
internal investigations where there was a significant failure that 
resulted from (1) failure to follow an established procedure, (2) lack 
of an established procedure, or (3) conflicting or obsolete procedures. 
The report is to detail the causal factors and scope of the deficiency.
    We identified eight cases involving Customs employees investigated 
by Customs' Office of Internal Affairs. No procedural deficiency 
reports were prepared in these cases. Further, the investigative files 
did not document whether internal control weaknesses were identified. A 
Customs official said the reports are generally not prepared.
    Although the Justice OIG and Customs' Office of Internal Affairs 
have lead responsibility for investigating allegations involving INS 
and Customs employees, the FBI is authorized to investigate INS or 
Customs employees. Of the 28 cases, the FBI investigated 7, involving 6 
INS employees and 1 Customs employee. Under current procedures, the FBI 
is not required to provide the Justice OIG or Customs' Office of 
Internal Affairs with case information that would allow them to 
identify internal control weaknesses, where the FBI investigation 
involves an INS or Customs employee. In addition, while Attorney 
General memorandums require the FBI to identify and report any internal 
control weaknesses identified during white-collar or health care fraud 
investigations, a Justice Department official told us that these 
reporting requirements do not apply to drug-related corruption cases. 
According to FBI officials, no reports were prepared in the seven cases 
because they were not required.
Our Review of Closed Corruption Cases Revealed Internal Control 
        Weaknesses on the Southwest Border
    The Justice OIG and Customs did not identify and report any 
internal control weaknesses involving the procedures that were followed 
at the ports of entry and at Border Patrol checkpoints along the 
Southwest Border. Our review of the same cases identified several 
weaknesses.
    We identified 14 cases in which INS or Customs inspectors knowingly 
passed drug-laden vehicles through ports of entry. Traditionally, INS 
and Customs have relied on internal controls to minimize this type of 
corruption. These have included the random assignment and shifting of 
inspectors from one lane to another and the unannounced inspection of a 
group of vehicles. However, in the cases we reviewed, these internal 
controls did not prevent corrupt INS and Customs personnel from 
allowing drug-laden vehicles to enter the United States. In some cases, 
the inspectors communicated their lane assignment and the time they 
would be on duty to the drug smuggler and in other cases they did not. 
In one cases, for example an inspector used a cellular telephone to 
send a prearranged code to a drug smuggler's beeper to tell him which 
lane to use and what time to use it. In contrast, another inspector did 
not notify the drug smuggler concerning his lane assignment or the 
times he would be on duty. In that case, the drug smuggler used an 
individual, referred to as a spotter, to conduct surveillance of the 
port of entry. The spotter used a cellular telephone to contact the 
driver of the drug-laden vehicle to tell him which lane to drive 
through.
    The drug smugglers schemes succeeded in these cases because the 
drivers of the drug-laden vehicles could choose the lane they wanted to 
use for inspection purposes. These cases support the implementation of 
one or more methods to deprive drivers of their choice of inspection 
lanes at ports of entry. At the time of our review, Customs was testing 
a method to assign drivers to inspection lanes at ports of entry.
    In 10 of 28 cases drug smugglers relied on friendships, personal 
relationships, or symbols of law enforcement authority to move drug 
loads through a port of entry or past a Border Patrol checkpoint. In 
these 10 cases drug smugglers believed that coworkers relatives and 
friends of Customs or immigration inspectors, or law enforcement 
officials would not be inspected or would be given preferential 
treatment in the inspection process. For example a Border Patrol agent 
relied on his friendships with his coworkers to avoid inspection at a 
Border Patrol checkpoint where he was stationed. In another casket an 
inspector agreed to allow her boyfriend to smuggle drugs through a port 
of entry. The boyfriend used his personal and intimate relationship 
with the inspector to solicit drug shipments from drug dealers. Two 
DEOs working together used INS detention buses and vans to transport 
drugs past a Border Patrol checkpoint. In two separate cases, former 
INS employees relied on friendships they had developed during their 
tenure with the Agency to smuggle drugs through ports of entry and past 
Border Patrol checkpoints.
    INS and Customs do not have written recusal policies concerning the 
performance of inspections where the relationship of immigration or 
Customs inspectors and Border Patrol agents to the person being 
inspected is such that they may not objectively perform the inspection. 
Nor do they have a written inspection policy for law enforcement 
officers or their vehicles. For example, our review of the cases 
determined that, on numerous occasions, INS DEOs drove INS vehicles 
with drug loads past Border Patrol checkpoints without being inspected.
INS and Customs Have Not Evaluated Their Integrity Procedures
    INS and Customs have not evaluated the effectiveness of their 
integrity assurance procedures to identify areas that could be 
improved. According to Justice OIG, INS, and Customs officials, agency 
integrity procedures have not been evaluated to determine if they are 
effective. The Acting Deputy Commissioner of Customs said that there 
were no evaluations of the effectiveness of Customs integrity 
procedures. Similarly, officials in INS' Offices of Intemal Audit and 
Personnel Security said that there were no evaluations of the 
effectiveness of INS' integrity procedures. According to the Justice 
Inspector General, virtually no work had been done to review closed 
corruption cases or interview convicted employees to identify areas of 
vulnerability.
    Based on our review, one way to evaluate the effectiveness of 
agency integrity procedures would be to use drug-related investigative 
case information. For example, the objective of background 
investigations or reinvestigations is to determine an individual's 
suitability for employment, including whether he or she has the 
required integrity. All 28 of the INS and Customs employees who were 
convicted for drug-related crimes received background investigations or 
reinvestigations that determined they were suitable. According to INS 
and Customs security officials, financial information, required to be 
provided by employees as part of their background investigations or 
reinvestigations, is to be used to detemline whether they appear to be 
living beyond their means, or have unsatisfied debts. If either of 
these issues arises, it must be satisfactorily resolved before INS or 
Customs can detemline that the employee is suitable. In addition, 
Justice policy provides for the temporary removal of immigration 
inspectors and Border Patrol agents if they are unable and/or unwilling 
to satisfy their debts.\7\
---------------------------------------------------------------------------
    \7\ Justice Departrnent policy defines debt as ``lawful financial 
obligations that are just debts that are past due.''
---------------------------------------------------------------------------
    Our review of background investigation and reinvestigation files 
for convicted INS employees showed that immigration inspectors and 
Border Patrol agents were required to provide limited financial 
information on liabilities, including bankruptcies, wage garnishment, 
property repossession, and liens for taxes or other debts or judgements 
that have not been paid.\8\ They were not required to provide 
information on their assets. In comparison, Customs inspectors and 
canine enforcement officers were required to provide information on 
both their assets and liabilities, including financial information for 
themselves and their immediate families on their bank accounts, 
automobiles, real estate, securities, safe deposit boxes, business 
investments, art, boats, antiques, inheritance, mortgage, and debts and 
obligations exceeding $200.\9\
---------------------------------------------------------------------------
    \8\ Immigration inspectors and Border Patrol agents are to complete 
a Questionnaire for National Security Positions as part of their 
background investigation and reinvestigation.
    \9\ Customs inspectors and canine enforcement officers are to 
complete a Questionnaire for Public Trust Positions and a Financial 
Statement on Custorns Form 257 as part of their background 
investigation and reinvestigation.
---------------------------------------------------------------------------
    Our review of the 28 cases involving convicted INS and Customs 
employees disclosed that 26 of 28 employees were offered or received 
financial remuneration for their illegal acts. At least two were 
substantially indebted, and at least four were shown to be living 
beyond their means. For example, one of the closed cases we reviewed 
involved an immigration inspector who said he became involved with a 
drug smuggler because he had substantial credit card debt and was on 
the verge of bankruptcy. Given the limited financial information 
immigration inspectors are required to provide, this inspector might 
not have been identified as a potential risk. In another case, a mid-
level Border Patrol agent owned a house valued at approximately 
$200,000, an Olympic-sized swimming pool in its own separate building, 
a 5-car garage, 5 automobiles, 1 van, 2 boats, approximately 100 
weapons, $45,000 in treasury bills, 40 acres of land, and had no debt. 
Given the current background investigation or reinvestigation financial 
reporting requirements for Border Patrol agents, this agent would not 
have had anything to report, since he was not required to report his 
assets, and he had no debts to report.
    Our review of Customs files for eight of the nine convicted Customs 
employees showed that the Customs inspectors and canine enforcement 
officers had completed financial disclosure statements that included 
their assets and liabilities as part of their employee background 
investigations and reinvestigations. However, based on our case file 
review, Customs does not fully use all of the financial information. 
For example, according to a Customs official, reported liabilities are 
to be compared with debts listed on a credit report to determine if all 
debts were reported. Thus, their current use of the reported financial 
information would not have helped to identify an employee who was 
living well beyond his means or whose debts were excessive.
    Another source of evaluative information for INS and Customs could 
be the experiences of other Federal agencies with integrity prevention 
and detection policies and procedures. For example, while INS' and 
Customs' procedures were similar to those used by other Federal law 
enforcement agencies, several differences exist. According to agency 
officials, INS and Customs did not require advanced integrity training, 
polygraph examinations, or panel interviews before hiring, while the 
FBI, DEA, and Secret Service did have these requirements. Among the 
five agencies, only DEA required new employees to be assigned to a 
mentor to reinforce agency values and procedures. Since these policies 
and procedures are used by other agencies, they may be applicable to 
INS and Customs.
    During our review, the Justice OIG, INS, the Treasury OIG, and 
Customs began to review their anticorruption efforts. These efforts 
have not been completed, and it is too early to determine what their 
outcomes will be.
                            recommendations
    Given the enormous sums of money being generated by drug 
trafficking and the corruption of some INS and Customs employees along 
the Southwest Border, both INS and Customs are vulnerable to the threat 
of corruption. Accordingly, we recommended that the Attorney General:
    <bullet> direct the Commissioner of INS to evaluate the 
effectiveness of integrity assurance efforts, such as training, 
background investigations, and reinvestigations;
    <bullet> require the Commissioner of INS to comply with policies 
that require employment reinvestigations to be completed when they are 
due;
    <bullet> direct the Commissioner of INS to strengthen internal 
controls at Southwest Border ports of entry and at Border Patrol 
checkpoints by establishing (1) one or more methods to deprive drivers 
of their choice of inspection lanes at ports of entry; (2) a policy for 
the inspection of law enforcement officers or their vehicles at ports 
of entry and Border Patrol checkpoints; and (3) a recusal policy 
concerning the performance of inspections by immigration inspectors and 
Border Patrol agents where their objectivity may be in question;
    <bullet> direct the Commissioner of INS to require Border Patrol 
agents and immigration inspectors to file financial disclosure 
statements, including a listing of their assets and liabilities, as 
part of the background investigation or reinvestigation process, as 
well as fully review this information to identify financial issues, 
such as employees who appear to be living beyond their means;
    <bullet> require the Justice OIG to document that policies and 
procedures were reviewed to identify internal control weaknesses in 
cases where an INS employee is determined to have engaged in drug-
related criminal activities; and
    <bullet> require the Director of the FBI to develop a procedure to 
provide information from closed FBI cases, involving INS or Customs 
employees, to the Justice OIG or Customs' Office of Internal Affairs so 
they can identify and report internal control weaknesses to the 
responsible agency official. The procedure should apply in those cases 
where (1) the Justice OIG or Customs' Office of Internal Affairs was 
not involved in the investigation, (2) the subject of the investigation 
was an INS or Customs employee, and (3) the employee was convicted of a 
drug-related come.
    We also recommended that the Secretary of the Treasury
    <bullet> direct the Commissioner of Customs to evaluate the 
effectiveness of integrity assurance efforts, including training, 
background investigations, and reinvestigations;
    <bullet> require the Commissioner of Customs to comply with 
policies that require employment reinvestigations to be completed when 
they are due;
    <bullet> require the Commissioner of Customs to document that 
policies and procedures were reviewed to identify internal control 
weaknesses, in cases where a Customs employee is determined to have 
engaged drug related criminal activities;
    <bullet> require the Commissioner of Customs to comply with the 
policies that require employment reinvestigations to be completed when 
they are due;
    <bullet> require the Commissioner of Customs to document that 
policies and procedures were reviewed to identify internal control 
weaknesses in cases where a Customs employee is determined to have 
engaged in drug-related criminal activities;
    <bullet> direct the Commissioner of Customs to strengthen internal 
controls at Southwest Border ports of entry by establishing (1) one or 
more methods to deprive drivers of their choice of inspection lanes; 
(2) a policy for inspection of law enforcement officers and their 
vehicles; and (3) a recusal policy concerning the performance of 
inspections by Customs inspectors where their objectivity may be in 
question; and
    <bullet> require that Customs fully review financial disclosure 
statements, which employees are required to provide as part of the 
background investigation or reinvestigation process, to identify 
financial issues, such as employees who appear to be living beyond 
their means.
                    agencies' comments on our report
    The Department of Justice generally agreed with the substance of 
the report and recognized the importance of taking all possible actions 
to reduce the potential for corruption. However, Justice expressed 
reservations about implementing two of the six recommendations 
addressed to the Attorney General.
    First, Justice expressed reservations about implementing our 
recommendation that Border Patrol agents and immigration inspectors 
file financial disclosure statements as part of their background 
investigations or reinvestigations. Specifically, it noted that 
implementing financial disclosure ``has obstacles to be met and at 
present the DOJ has limited data to suggest that they would provide 
better data or greater assurance of a person's integrity.''
    We recognized that implementation of this recommendation will 
require some administrative actions by INS. However, these actions are 
consistent with the routine management practices associated with making 
policy changes within the Agency. Therefore, the obstacles do not 
appear to be inordinate or insurmountable. Concerning the limited data 
about the benefits of financial reporting, according to OPM officials 
and the adjudication manual for background investigations and 
reinvestigations, financial information can have a direct bearing and 
impact on determining an individual's integrity. The circumstances 
described in our case studies suggest that financial reporting could 
have raised issues for followup during a background investigation or 
reinvestigation. We recognize that there may be questions on the 
effectiveness of this procedure; therefore, this report contains a 
recommendation for an overall evaluation of INS' integrity assurance 
efforts.
    Secondly, Justice expressed reservations about implementing our 
recommendation that the FBI develop a procedure to provide information 
to the Justice OIG or Customs' Office of Internal Affairs on internal 
control weaknesses. Therefore, we clarified our recommendation to 
indicate that the procedure should only apply in those cases where (1) 
the Justice OIG or Customs' Office of Internal Affairs was not involved 
in the investigation, (2) the subject of the investigation was an INS 
or Customs employee, and (3) the employee was convicted of a drug-
related crime. If internal control weaknesses in INS or Customs are 
known to the FBI and not disclosed to those agencies, then the agencies 
are not in the best position to correct the abuses.
    The Department of the Treasury provided comments from Customs that 
generally concurred with our recommendations and indicated that it is 
taking steps to implement them. However, Customs requested that we 
reconsider our recommendation that Customs fully review financial 
disclosure statements that are provided as part of the background and 
reinvestigation process. Our recommendation expected Customs to make a 
more thorough examination of the financial information it collects to 
determine if employees appear to be living beyond their means. We leave 
it to Customs' discretion to determine the type of examination to be 
performed.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you or other Members of the Caucus 
may have.

    Senator Grassley. Now, let me make another administrative 
point for both this panel and the succeeding panel. For members 
who are here or especially if no one comes, but even for those 
who will be here, there will probably be some questions given 
to each panelist to answer in writing, and we would like to 
have those returned by 2 weeks from the time that they were 
sent.
    Thank you very much.
    Do either one of your colleagues want to speak?
    Mr. Stana. No.
    Senator Grassley. One of the items noted in the report is 
the failure of both the INS and Customs to complete 
reinvestigations when they are due. Was this failure the result 
of lack of resources?
    Mr. Stana. Well, apparently so. The fact that these 
reinvestigations were not done on time would indicate that 
there were not enough resources applied to this issue. It may 
also, I might add, indicate that the resources devoted to this 
task may not have worked as efficiently as possible.
    Senator Grassley. Is there any indication that there has 
been any preference or special interest in those who were 
investigated as opposed to those who have not been 
investigated?
    Mr. Stana. In our review of the 28 cases, we did not see 
any instances where special attention was paid to any of the 
individuals and, thus, we recommended--we did point out that 
all 28 passed their background checks or reinvestigations, and 
that is really the crux of our recommendation to really take a 
look at these things to see how well they are designed to catch 
this kind of wrongdoing.
    Senator Grassley. And the Justice Department expressed some 
reservations about implementing the GAO recommendations that 
there be a financial disclosure reporting requirement for 
investigative and reinvestigative purposes. Do you have any 
additional objections to this recommendation?
    Mr. Stana. No. We think these are good recommendations, and 
we stand by them. We think that, when implemented, they will go 
a long way toward reducing the threat of corruption.
    I might add that the Justice recommendation seemed to 
center around just a few items. One was whether it would be 
difficult to get an OMB form or a form through the OMB for 
approval. And it appears that Customs has a very similar form 
that the Justice Department may go to school on, if you will, 
to reduce that difficulty.
    Another was possible union objection. But the union 
officials told us that they would not object to financial 
disclosure information from folks in sensitive issues or 
sensitive areas. And there was also some concern of what to do 
with the financial information once it was collected, and that 
might require some thinking about how best to analyze it.
    Senator Grassley. What else could be done to discover 
employees whose financial situation makes them vulnerable to 
corruption?
    Mr. Stana. Well, I think having the financial disclosure 
information is a big first step and analyzing that properly. We 
are not saying that anyone who has large unexplained assets or 
liabilities is a person who is partaking in corruption, but it 
does give you an idea of who is vulnerable and just asking 
another question about where they got the money or how they 
came upon the asset or liability would be useful. For example, 
the individual I had in my statement who owned a $200,000 and 
the in-ground swimming pool on a mid-level salary, it might be 
useful to understand how he came upon that money; an 
inheritance, a lottery winning it could be or it could be 
through illegal means.
    Senator Grassley. On whose financial records discloses a 
significant mismatch between income and lifestyle?
    Mr. Stana. Well, if you are suggesting that maybe someone 
who is partaking in illegal acts may not truthfully complete a 
financial disclosure statement, that is a fair enough point. 
But what we have seen is that people do tend to fill them out 
correctly. They are reviewed by their superiors. And as I 
mentioned before, this is a good first step to better 
understand somebody's financial dealings and whether they are 
vulnerable to corruption.
    Senator Grassley. Based on your review that reveals 
shortcomings in Customs and Internal Affairs investigations, do 
you believe that past IA investigations were compromised?
    Mr. Stana. What we did is we reviewed past IA 
investigations to see if the investigations were done in 
accordance with internal direction, and what we found is we 
could not find the documentation that all of the steps were 
performed. That is not to say that all of the steps were not 
performed. We could not find the documentation. But if the 
commissioner or the current head of the IA unit over there does 
another review of these cases and finds that maybe the quality 
of investigation that they did really was not up to par, and 
they feel that a reinvestigation is called for, then we 
certainly think that that is what should be done.
    Senator Grassley. And does a lack of thoroughness suggest a 
need to reopen and reexamine some cases?
    Mr. Stana. If these are found not to be thorough, then I 
would suspect that they may want to either have another look at 
that individual or try to get a better idea of some of the 
methods that that individual might have used if they suspect a 
person may have been corrupted.
    Senator Grassley. Senator Graham.
    Senator Graham. Thank you very much, Mr. Chairman. I have 
an opening statement that I would like to submit for the 
record.
    Senator Grassley. It will be, without objection, received.
    [The prepared statement of Senator Graham follows:]
    Statement of Senator Bob Graham, Senate Caucus on International 
                           Narcotics Control
         the continued threat of corruption to u.s. border law 
                          enforcement agencies
    Mr. Chairman, I want to thank you for holding this hearing on the 
continued threat that internal corruption poses to our law enforcement 
agencies responsible for securing our international borders. 
Recognizing and effectively dealing with this threat is essential to 
our anti-drug efforts. As long as drug traffickers and the lure of 
money can easily compromise the ethics and integrity of even one of our 
border law enforcement officers, cocaine, marijuana, heroin and other 
illegal drugs will find their way though our seaports and airports and 
across our land borders.
    I have reviewed the reports prepared by the General Accounting 
Office and Treasury's Office of Professional Responsibility. The 
findings are encouraging, and indicate there is no endemic corruption 
problem at the Customs Service and the Immigration and Naturalization 
Service. We must continue to pursue a policy of zero tolerance with 
regard to all types of internal corruption, as well as professional and 
personal misconduct. Our federal law enforcement officers must be 
beyond reproach.
    Customs and INS are two of our most visible federal law enforcement 
agencies. Each day, hundreds of thousands of people come into contact 
with our Customs and INS personnel as they enter and depart the United 
States. To maintain the credibility of the agencies, Customs and INS 
must develop and deploy effective policies to investigate allegations 
of employee misconduct. Additionally, these agencies must ensure that 
when allegations of criminal behavior or misconduct are substantiated, 
the application and administration of discipline is swift, efficient, 
and effective.
    Both Treasury OPR and GAO point out that the backlog of background 
reinvestigations of current Customs and INS employees leaves both 
agencies more vulnerable to potential employee corruption. Customs and 
INS must vigorously pursue a plan to complete the pending 
reinvestigations and to prevent the development of another backlog in 
the future. Neither agency can adequately address corruption and 
integrity concerns when the backgrounds of personnel occupying 
sensitive law enforcement positions are not examined on a regular 
basis.
    Unfortunately, Customs has suffered from several damaging articles 
that have appeared in both the local and national media. A number of 
these stories have originated within my home state of Florida. I am 
extremely concerned that these articles reflect a culture at Customs 
that can best be described as alarming. It is essential that Customs 
get its house in order, striving to establish a more professional image 
within the national law enforcement community.
    Customs must also reestablish an enhanced level of trust and 
respect within the international trade community and with the public. 
To his credit, Commissioner Kelly has made several key appointments and 
changes within the agency to begin this process, and I applaud his 
efforts. However, change at Customs must survive the tenure of any one 
Commissioner and become an integral part of the organizational culture 
at Customs.
    I know both our witnesses feel strongly that corruption is one of 
the most pressing threats to our border security and are actively 
working to ensure their respective agencies are corruption-free. I look 
forward to hearing their testimony regarding the findings and the 
changes underway at both Customs and INS.

    Senator Graham. After the unfortunate Aldrich Ames 
situation with the CIA, there was a great deal of concern 
expressed about what the CIA had or had not done relative to 
proper oversight of its sensitive employees. A particular 
concern was, once a person had been in the employ of the Agency 
for some time, was there sufficient ongoing periodic 
reinvestigation and monitoring of lifestyle changes, such as 
you just described.
    If you are familiar with what the CIA has done as a result 
of that unfortunate incident, do you think there are any 
lessons that could be learned from their new procedures that 
might be applicable to Customs and the INS?
    Mr. Stana. Well, I cannot comment on what the CIA did or 
did not do because we really did not do a thorough 
investigation or a thorough look at how good those new 
procedures are. But I can tell you this, one of the things that 
we discovered by looking at the 28 cases was is that, as in the 
Aldrich Ames case, it is often the mid-level people who have 
been around a while who weigh the risk of going down that road 
and feel that the money is worth the risk because they feel 
they can breach these controls. They feel really comfortable in 
their ability to defeat them. And these are the folks that I 
think you have to be particularly careful to do the proper 
reinvestigations, do the proper financial checks and so on.
    Of the 28 cases, the average tenure in the agencies was 
about 10 years. It ranged from 2 to roughly 20, if I recall 
correctly. And so it is those mid-level folks who, once they 
get comfortable with the Agency, comfortable with what they are 
doing, comfortable with the integrity procedures and 
comfortable that the risk-reward trade-off is in their benefit, 
those are the ones that are most vulnerable.
    Senator Graham. Is there an agency with which you are 
familiar that you think is a role model of effective ongoing 
monitoring of middle-aged, middle-position of responsibility 
personnel in sensitive positions? They each take a different 
tack to this sort of thing. Did you run across any that you 
would like to comment on?
    Mr. Jennings. Senator, we looked at five law enforcement 
agencies, and one of the things we found is that there is 
really no data to support any of the procedures that are being 
followed. There was nothing that said that polygraphing or 
relocation or financial disclosure or any other procedure was 
or was not effective. That is the underlying reason for our 
recommendation, that INS and Customs evaluate their procedures 
in order to find out what works and what does not.
    Senator Graham. That is surprising. This is not a unique 
situation. Unfortunately, every organization that has sensitive 
responsibilities with large amounts of monetary gain by elicit 
activities faces this potential. Is there some place within the 
Federal Government that should have the ongoing responsibility 
of evaluating, (A) the effectiveness of the methods and 
procedures that the Agency is using and, (B) the degree to 
which the Agency is faithfully implementing those methods and 
procedures?
    Mr. Stana. Each agency has an Inspector General's Office 
that covers those kinds of things, and I think that is a good 
place to start there. I might just add, again, it may not be 
one item or there really is no silver bullet that polygraphing 
is the answer or integrity training every year is the answer or 
having all of those background reinvestigations is the answer. 
It is the combination of these measures that gives the staff, 
the agents or whomever they are, the feeling that it is not 
worth it because I am going to get caught, and when I get 
caught, I am going to do some serious jail time. Once they get 
a little too comfortable that they can defeat these procedures, 
that is when trouble begins.
    Senator Grassley. Are there any areas of the law, such as 
privacy law restrictions, that create an unacceptable barrier 
to evaluation of activities of ongoing personnel; for instance, 
access to the financial records of personnel to determine 
whether that $200,000 house they just bought was purchased by 
lottery winnings or from unexplained suspect sources?
    Mr. Stana. Yes. In fact, the Treasury raised that as one 
possible objective to very deep analysis of the financial 
disclosure reports. We have pointed out that the Computer 
Matching Act really would not apply to the types of analysis we 
were suggesting for financial disclosure documents.
    So I do not think for financial disclosure documents that 
would be a problem in most cases unless they may be doing 
something with them I cannot think of right now.
    Senator Graham. Do you mean getting access to the 
information which underlies the financial disclosure?
    Mr. Stana. Well, the information that--let me back up a 
second.
    I think what we would expect in financial disclosure 
reporting is a form on which the agent would put their assets 
or liabilities, the stock they own, similar to the ones that we 
fill out as Government employees. Now, whether the Government 
has the right to go behind that to contact Paine Webber or 
Merrill Lynch or whomever to see exactly how much stock is 
owned or whether they have the right to go in your bank 
account, I am not sure that is what we are suggesting. I also 
do not know if there would be a privacy problem with that.
    What we would envision is you take these reports of assets, 
and if something is not explained, sit down with the individual 
who filled it out and try to get an explanation. If an 
explanation is not forthcoming, then take the next step to 
verify the assets.
    Senator Graham. Thank you, Mr. Chairman.
    Senator Grassley. Thank you, Senator Graham.
    Senator Feinstein.

    STATEMENT OF SENATOR DIANNE FEINSTEIN, SENATE CAUCUS ON 
                INTERNATIONAL NARCOTICS CONTROL

    Senator Feinstein. Thanks very much, Mr. Chairman. I would 
like to use my time to make a brief statement and ask a few 
questions.
    Senator Grassley. Yes.
    Senator Feinstein. With the huge volumes of drug money that 
flow across our border, obviously the temptations for border 
agency corruption are real and tangible. In a recent incident, 
an INS inspector, making $35,000 a year, was alleged to have 
been paid $800,000 to allow 20 tons of drugs of cocaine to slip 
across the border. The street value of the 20 tons, just to 
show you how big it is, was $1.6 billion.
    According to a recent San Jose Mercury News article, drug 
corruption cases are on the increase, and you have documented 
that with your survey, I think, of the 28 people. It has 
increased from 79 in 1997 to 157 last year.
    After reviewing your report, I must tell you I am still 
looking for answers. I would like to commend you for your 
findings regarding the delay in completing background checks, 
the insufficient financial disclosure by employees and the 
adequacy of internal controls.
    Some of the cases highlighted, Mr. Chairman, by the GAO are 
very disturbing. In one case, a Customs inspector in El Paso 
used a cellular telephone to send a prearranged code to a drug 
smuggler's beeper telling him which lane to use at a border 
crossing and when to use it. And as the head of the Customs 
agency knows, we visited together the sites, and we know the 
problems of spotters all along our border at these port points.
    In another case, an Immigration official in Calexico agreed 
to let her boyfriend, a member of a drug-smuggling family, 
drive a vehicle loaded with marijuana through a lane without 
inspection.
    My concern really goes back beyond one study. As far back 
as March 1996, I asked the GAO to investigate the continuing 
influx of drugs entering our country, and they produced four 
reports; one in April 1998, July 1998 and August 1998. These 
problems they dealt with were the internal control weaknesses 
in a program known as Line Release, which was intended to 
identify and separate low-risk shipments from those with an 
apparently higher risk. And they pointed out difficulties with 
a three-tier target concept, another enforcement initiative 
implemented in 1992, designed to identify high- and low-risk 
shipments.
    I think it is vital that we develop tighter controls. I am 
really worried about the spread of corruption north of the 
border. And so, Mr. Chairman, I am going to ask for an update 
on each of the three reports that I asked for earlier; internal 
control weaknesses over deletion of certain law enforcement 
records, internal control weaknesses and other concerns with 
low-risk cargo entry programs and the process for estimating 
and allocating inspectional personnel. I will put that in 
writing and send it out. If either one of you would like to 
join with me, I would be very, very happy to have you join.
    Senator Grassley. I will join you.
    Senator Graham. And I will likewise.
    Senator Feinstein. Thank you. Thank you very much.
    So I think if we keep at this, at least we will get some 
updated information.
    Now, let me, just for a moment, ask and see if these 
gentlemen can perhaps respond to some of these questions. I 
wanted to ask a couple of questions about the Line Release 
program and whether GAO has some new information that would 
indicate the current status of Line Release and whether Customs 
has taken any action to address the weaknesses you identified 
back in 1998.
    Mr. Stana. Yes, some actions were taken, but let me just 
put them in context. If you recall from that report, we found 
weaknesses in how the determinations were made that a certain 
importer could be on the Line Release program. There is very 
little recordkeeping. Some of the determinations seem to be 
made almost viscerally, as opposed to having some set criteria.
    Since that time, some criteria were established primarily 
on the number of shipments brought across the border within a 
certain amount of time. What the guidance still lacks, in our 
view, is a further discussion on what kind of background checks 
are expected, who should be consulted to verify the shipper's 
law enforcement status--there may not be a Dun & Bradstreet 
over on the Mexican side like there is here--and what kind of 
checklists and documentation should there be to assure that 
these kinds of checks were made and that these rechecks were 
made when due. We are still concerned about that.
    Senator Feinstein. Thank you very much, and I know that 
both the INS head and the Customs head are here, and I will ask 
them those questions when they come up. Hopefully, they will 
re-review this excellent report of yours.
    What action has Customs taken--well, let me ask this a 
different way.
    Has Customs instituted adequate management control systems 
to prevent the deletion of records from their systems which 
renders the text information potentially unreliable?
    Mr. Stana. Following our report, we believe that Customs 
did take action on that. They instituted a system whereby a 
person who has deletion authority would be very few at a 
certain port, and any time a record was to be deleted, the 
owner of that record had to be consulted, and the deleting 
party's name would be listed on the record. So there would be 
full disclosure as to who was deleting the record and for what 
reason, and the person who originated the record would be aware 
of that.
    Senator Feinstein. And you feel that that is adequate?
    Mr. Stana. Well, this is what they told us is being done, 
and we have seen some instances where that was being done. We 
have not done a full review to make sure that it is followed in 
every case, but that is the new----
    Senator Feinstein. In our letter we will ask you to do 
that.
    Mr. Stana. That is the new procedure. Yes. OK, Senator.
    Senator Feinstein. Now, the GAO also found problems with 
the processes for estimating and allocating inspection 
personnel at the ports. For example, under the current Customs 
employees' union contracts, inspectors can only be moved to new 
sites if they volunteer.
    The GAO also found that inconsistent practices in the 
Agency's personnel decision-making processes, could prevent 
Customs from accurately estimating the need for inspector 
personnel and allocating them to ports, preventing the quick 
allocation of resources to where they are most needed.
    Could you comment on the efforts Customs has made to 
address these personnel problems which impact directly on its 
ability to stop the flow of drugs across the border.
    Mr. Stana. Yes. Since our report was issued, I believe that 
Customs has come up with a model or a process to determine how 
best to allocate their resources. We have not examined that 
process or that model yet, but I would be looking at two things 
if I were to redo that study. One thing is, is how good are the 
numbers of agents in a certain port and how good are the 
numbers in the cargo through-puts, how good are the numbers on 
the traffic through the ports and so on. So I would want to 
look at the numbers.
    The second thing I would want to look at is the threat 
assessments that the models are based on. If the threat 
assessments are not good, then the whole model is not going to 
be good either.
    Senator Feinstein. So perhaps the best thing for us to do 
then is simply to ask you to update these reports from 1998 and 
to make any specific comments that you might care to make on 
weaknesses, as well as improvements.
    Mr. Stana. Yes. We would be happy to meet with your staff 
and talk about the scope of that study.
    Senator Feinstein. All right, excellent. Thank you very, 
very much.
    Thanks, Mr. Chairman.
    Senator Grassley. Thank you, Senator Feinstein. Except for 
the questions you might be getting in writing, this--well, here 
comes Senator Sessions. Would you like to ask questions of this 
panel because you are right on time if you want to.
    Senator Sessions. I am familiar with the report. I think, 
Mr. Chairman, I will not have any questions.
    Senator Grassley. As I started to say, you could get some 
questions in writing from all of us or people that are not 
here.
    Mr. Stana. We would be happy to answer.
    Senator Grassley. Thank you very much, Mr. McPhail, Mr. 
Jennings, and Mr. Stana.
    Now, I have an opportunity to invite Commissioner Kelly and 
Commissioner Meissner to our witness table. The panel that is 
coming represents the heads of the two law enforcement agencies 
that we just heard the General Accounting Office report on, who 
have to fight the continued threat of corruption on our 
borders.
    Commissioner Kelly, of the U.S. Customs Service, will lead 
off this panel. He is well-known in the law enforcement 
community for his leadership as police commissioner of the New 
York City police department. Before his appointment to Customs, 
he served as the under secretary for Enforcement of the 
Treasury Department, and that was since 1996. Mr. Kelly brings 
to the position more than 30 years of experience and commitment 
to public service.
    Our second panel member, Commissioner Meissner, head of the 
Immigration and Naturalization Service, is responsible for a 
rapidly growing border agency comprised of Border Patrol agents 
and Immigration inspectors. The INS has almost doubled in size 
since 1993. We welcome you to this hearing, and we will hear 
your statements at this point, starting with Mr. Kelly.

         STATEMENT OF RAYMOND W. KELLY, COMMISSIONER, 
          U.S. CUSTOMS SERVICE, DEPARTMENT OF TREASURY

    Mr. Kelly. Thank you, Mr. Chairman. Chairman Grassley, and 
members of the caucus, thank you for this opportunity to 
testify today on the vulnerability of law enforcement agencies 
to corruption along the Southwest Border.
    I have provided the caucus with detailed written testimony 
on the subject, and I ask that the testimony be entered into 
the hearing record. Rather than read my full statement, I would 
like to provide the caucus with some brief remarks on Customs' 
effort to fight corruption.
    As someone who has spent a long career in law enforcement, 
I know there is nothing more important to the functioning of a 
law enforcement agency than integrity. Without integrity, law 
enforcement is a contradiction in terms. Customs, working on 
the front line in America's war on drugs, remains ever vigilant 
in our effort to identify and eliminate the threat of 
corruption posed by drug traffickers. And in this regard, I 
have made integrity the No. 1 priority at the Customs Service.
    This afternoon, I will briefly describe to you what Customs 
is doing to address integrity-related concerns raised in the 
GAO report discussed here today. I will also provide the caucus 
with a brief overview of changes Customs has made in the last 
several months to shore up our Internal Affairs operations.
    These changes go directly to our ability to combat 
corruption. In their report entitled, ``Drug Control: INS and 
Customs Can Do More to Prevent Drug-Related Employee 
Corruption,'' GAO made five recommendations that it believes 
would enhance Customs' integrity programs. In short, the GAO 
recommendations can be grouped into two categories.
    The first category pertains to background investigations of 
Customs employees, specifically, the frequency with which we 
conduct them and the level of detail we go into when we conduct 
them. As pointed out by the GAO, Customs has a significant 
backlog of periodic reinvestigations or PRIs. A plan has 
already been implemented to address this problem. We have 
reprogrammed funds to hire contractors to conduct a large 
portion of the backlogged PRIs. With this assistance, we will 
be able to eliminate the PRI backlog over a 2-year period 
without impacting other personnel security requirements within 
the Agency.
    Furthermore, we have requested funds in the Customs fiscal 
year 2000 budget specifically for this purpose, and we are 
grateful for the provisions in 689 as well. We are going to fix 
it and make sure that it does not happen again.
    GAO has also suggested that Customs include financial 
disclosure statements as part of the background review process. 
In fact, we already do that. Financial disclosures are 
scrutinized during both the initial background screening and 
the periodic reinvestigation of Customs employees.
    The second category of GAO recommendations could be summed 
in one phrase, follow-through. The GAO raised valid concerns as 
to what Customs is doing to assure that existing integrity 
programs and initiatives are properly and consistently 
implemented.
    Prior to the release of the GAO report, we took two steps 
that I believe respond directly to these recommendations. 
First, a new assistant commissioner for Internal Affairs was 
brought on board at the Agency. Assistant Commissioner William 
Keefer is a former acting U.S. attorney and deputy chief of the 
Department of Justice's Office of Public Integrity. He brings 
to his new position the experience and leadership necessary to 
ensure that Customs' Internal Affairs will be the best in the 
business.
    Also, we have implemented a new internal inspection policy 
requiring each Customs office to be reviewed every 18 to 24 
months. In the past, offices were only inspected every 4 to 6 
years. This new inspection program will give us the ability to 
effectively monitor how integrity initiatives are implemented 
in the field and will allow us to make sure that managers at 
all levels follow through with Customs policies and procedures 
already in place.
    I want to describe a number of other steps we are taking at 
Customs to prevent corruption. Under the leadership of 
Assistant Commissioner Keefer, the Customs Office of Internal 
Affairs has begun a significant reorganization. This will 
include the immediate rotation of roughly 80 Office of 
Investigations and Internal Affairs agents. The intent of the 
rotation is to infuse Internal Affairs with savvy agents 
experienced in proactive investigations. These agents, 
dispersed throughout the country, will make up the core of an 
Internal Affairs operation focusing on criminal investigations 
rather than administrative violations.
    Two outside consultants will be brought in to review our 
Internal Affairs operations and structure; former FBI Assistant 
Director James Kallstrom and former Justice Department Office 
of Professional Responsibility Counsel Michael Shaheen.
    Our Quality Recruitment program is also a significant 
component of our integrity efforts. This initiative is a 
centralized, systematic approach designed to gauge the 
integrity and ability of potential new Customs inspectors and 
K-9 enforcement officers before they are brought on board. The 
idea behind the program is to recruit and hire the best people 
available, thereby minimizing the possibility for corruption 
before it occurs.
    Training is also extremely important to ensure a 
professional, corruption-free workforce. We are in the process 
of bringing on board an assistant commissioner for training. 
The person who holds this newly-created position will be 
responsible for coordinating in-service training for all 
Customs employees. Uniform, professional development programs, 
including specific integrity training, are critical for Customs 
to perform at the highest levels.
    Customs has also just implemented the new 1-800 telephone 
number for whistleblowers. This number will be monitored by 
staff in the Office of the Commissioner, my office, and will 
provide appropriate outside agency contacts to whistle blowers, 
allowing them to report their concerns and seek any necessary 
legal protections.
    As the members of the caucus are well aware, whistle 
blowers are often a valuable resource in the effort to ferret 
out corruption in our Government and Customs will make sure 
that their rights are not violated.
    Mr. Chairman, every review of Customs to date, including 
the GAO report discussed here today, has concluded that no 
systemic corruption exists at the Agency. Still, as the GAO 
rightly pointed out, there are some things we can do better. We 
are addressing the recommendations of the report. As you can 
see, we are going beyond them as we bolster our effort to 
eliminate even a hint of corruption in the Customs Service. In 
this effort, we appreciate the interest and support of the 
caucus.
    I would be happy to answer any questions you may have, Sir.
    [The prepared statement of Mr. Kelly follows:]
   Prepared Statement of Raymond W. Kelly, Commissioner of the U.S. 
                            Customs Service
    Chairman Grassley, Senator Biden, and other Members of the Caucus.
    Thank you for providing me with the opportunity to testify today on 
the corruption vulnerabilities of U.S. border law enforcement agencies. 
This is a matter that is of critical importance to the U.S. Customs 
Service.
    Having been a career law enforcement professional, I know there is 
nothing more important to the functioning of law enforcement than 
integrity.
    Mr. Chairman, there is no doubt that the mission of our agency, and 
the placement of our employees in positions on the front lines of the 
Nation's borders, opens our personnel to the vulnerability of 
corruption from narcotics traffickers. We are very cognizant of this 
and have undertaken significant safeguards that we believe will better 
prevent corruption.
    It is important to note that every review of Customs to date has 
concluded that no systemic corruption exists within the Agency. But, we 
are committed to bolstering the U.S. Customs Service's corruption 
fighting ability to eliminate whatever weaknesses might exist and 
making Customs integrity efforts second to none.
    The focus of today's hearing is on the recent GAO report, entitled, 
``Drug Control: INS and Customs Can Do More to Prevent Drug-Related 
Employee Corruption''. I plan to address all of the findings made by 
GAO with respect to Customs. However, I also would like to take this 
opportunity to explain other integrity reforms that we have underway 
that were not mentioned in the GAO report.
    I will start with the deficiencies identified by GAO and the 
recommendations made to the Secretary of the Treasury.
    GAO Recommendation No. 1. Direct the Commissioner of Customs to 
evaluate the effectiveness of the integrity assurance efforts 
including, training, background investigations and reinvestigations.
    Customs Response: We have completed a comprehensive review of our 
integrity assurance efforts. We are aggressively implementing annual 
integrity training for all employees and have developed a plan to 
ensure that all periodic reinvestigations are conducted in a timely 
manner. The principle external evaluation of the Office of Internal 
Affairs by the Treasury Department's Office of Professional 
Responsibility has been completed. Actions on those recommendations are 
underway. Furthermore, an evaluation of Customs' Office of Internal 
Affairs by former FBI Associate Director James Kallstrom and former 
Justice Department Office of Professional Responsibility Counsel 
Michael Shaheen will commence this month.
    GAO Recommendation No. 2: Require the Commissioner of Customs to 
comply with policies that require employment reinvestigations to be 
completed when they are due.
    Customs Response: I have requested funds in the Customs fiscal year 
2000 budget for addressing the backlog of PRIs that we are facing right 
now. Personnel security specialists who otherwise would be able to 
process these investigations have been preoccupied with processing 
background checks for our new hires. The funds I have requested will 
permit the outsourcing of the PRIs, thereby relieving the backlog. For 
the short term, I have reprogrammed funds to hire contractors to assist 
in the background investigation process. These enhancements will allow 
for the timely completion of PRIs, and not impact other personnel 
security activities through the draining of existing PRI dedicated 
resources. The plan we have in place will eliminate the PRI backlog 
over a 2 year period.
    GAO Recommendation No. 3: Require the Commissioner of Customs to 
document that policies and procedures were reviewed to identify 
internal control weaknesses in cases where a Customs employee is 
determined to have engaged in drug-related criminal activities.
    Customs Response: Internal control issues will be addressed during 
the forthcoming agency-wide self-inspection process. This all-
encompassing assessment will begin May 1999. In those instances ``where 
a Customs employee is determined to have engaged in drug-related 
criminal activities,'' procedures and policies are currently in place 
for IA to conduct procedural deficiency investigations in addition to 
full integrity investigations. Such investigations and inspections are 
designed to determine if the internal controls in place at the time of 
the criminal act were compromised or inadequate to prevent the 
commission of the crime.
    GAO Recommendation No. 4: Direct the Commissioner of Customs to 
strengthen internal controls at SW Border ports of entry by 
establishing (1) one or more methods to deprive drivers of their choice 
of inspection lanes; (2) a policy for inspection of law enforcement 
officers and their vehicles; and (3) a recusal policy concerning the 
performance of inspections by Customs inspectors where their 
objectivity may be in question.
    Customs Response: We have issued a new policy which prohibits 
inspectors from conducting offficial business with family members and 
close associates, except in unusual cases such as one-man ports. In 
cases of one-man ports, Customs inspectors will be required to report 
to their supervisors that they have cleared family members or friends 
and include such information in an automated reporting system so that 
it may be tracked and analyzed. In addition, Customs continues to 
utilize the implementation of lane denial whereby inspectors direct 
vehicles to specific lanes for primary inspection. We are also 
utilizing the COMPEX system to generate random secondary examinations 
of passengers and vehicles.
    GAO Recommendation No. 5: require that Customs fully review 
financial disclosure statements, which employees are required to 
provide as part of the background investigation or reinvestigation 
process, to identify financial issues such as employees who appear to 
be living beyond their means.
    Customs Response: Background investigators have been and are 
currently reviewing Customs employees' financial disclosure statements. 
They perform a line-by-line review of the financial disclosure form 
with the employee during the background interview. Apparent anomalies 
are highlighted during the interview and the background investigator 
will seek a satisfactory explanation for the matter prior to continuing 
the interview. Depending upon the nature of the anomaly, additional 
documentation will be obtained by the investigator, including 
commercial credit histories of employees.
                             other reforms
    Mr. Chairman, as you know, leadership is a key issue in any 
internal affairs operation. I have replaced the head of internal 
affairs, and recruited a career prosecutor for the post who will fight 
corruption. I elevated his authority, and have him reporting directly 
to me. William A. Keefer, who is here with me today, has impeccable 
credentials in public integrity matters. He has served as a former 
Acting United States Attorney and Deputy Chief of the Department of 
Justice's Office of Public Integrity.
    In addition to changes at the top, I have instituted a full review 
of the Office of Internal Affairs and will be directing reassignments 
when and where appropriate. These reassignments will be accompanied by 
movement of senior personnel in the Office of Investigations into the 
Office of Internal Affairs, both to take advantage of investigative 
experience and to better prepare them for future leadership 
responsibilities in Customs. In addition, we're working to make service 
in Internal Affairs a requirement for agents on promotion tracks. With 
this, we are stressing to our agents the importance of internal affairs 
to our organization.
    We are working on a new computerized system of tracking complaints 
and follow-up investigations to make certain that appropriate action is 
taken. In addition, time limits have been developed governing the 
stages of a follow-up investigation. Absent extenuating circumstances, 
managers will be held accountable for failure to adhere to these 
deadlines.
    We're reminding all employees that they have a duty to report 
suspected corruption, and face punishment if they fail to do so.
    We've established a stronger whistle blower program staffed in the 
Office of the Commissioner. The office will provide employees at all 
levels with information on their rights and responsibilities regarding 
whistle blowing.
    Recruitment and training are essential elements in any integrity 
program. The best defense against corruption is recruitment of the very 
best candidates to begin with. The integrity of our workforce becomes, 
de facto, the sum of the character of the men and women wearing the 
Customs badge. Customs has developed and implemented a Quality 
Recruitment program to attract the best and brightest into our entry-
level Customs Inspector and canine Enforcement Officer positions. 
Quality Recruitment is a centralized, systematic approach to gauge the 
integrity and ability of potential new employees. The program includes:
    <bullet> Written tests to assess reasoning skills, writing skills, 
and the likelihood of counterproductive behavior;
    <bullet> Structured interviews to assess judgement, maturity, and 
decision-making abilities
    <bullet> Mandatory reference checks
    <bullet> Extensive background checks and
    <bullet> Drug screening
    We are also taking the same approach with our Customs agents and 
pilots. We've centralized recruiting for inspectors and canine officers 
so that we can pick and choose form a more competitive national, as 
opposed to local, pool of candidates. We're counting on national 
recruitment to help Customs both replenish our ranks with the high 
caliber workforce we need for our increasingly complex duties as well 
as select only those individuals who show strong character and signs of 
uncompromising professionalism.
    Training goes hand-in-hand with recruitment. In 1992, the Customs 
Service became the first Treasury bureau to institute annual integrity 
reinforcement training for every employee. The Service continues to 
dedicate more formal training time to integrity at the Customs Academy, 
located at the Federal Law Enforcement Training Center. I have directed 
that annual integrity reinforcement training be funded and deployed 
this fiscal year, and continue on an annual basis.
    In addition, we've created a new Office of Training that will be 
lead by an Assistant Commissioner, who we have just recently selected. 
This Office will provide uniformity throughout Customs of the training 
all employees receive.
    We are also seeking authority to use polygraphs to screen Special 
Agents as part of pre-employment processing. A proposal is being 
developed to do the same for Inspectors, Canine Enforcement Officers, 
Pilots, Marine Enforcement Officers, Customs Patrol Officers, Aviation 
Enforcement Officers, and Intelligence Research Specialists. The use of 
polygraph testing is a valuable tool for helping us screen out 
undesirable or unstable candidates.
    We are also seeking the guidance and opinions of experts outside 
Customs on ways to improve our internal affairs capabilities. As I 
mentioned earlier, we have asked a highly respected former Assistant 
Director of the Federal Bureau of Investigation, James Kallstrom, and 
Michael Shaheen, the former Director of the Office of Professional 
Responsibility at the Department of Justice, to give the Customs 
Service an outside, objective assessment of the effectiveness of our 
corruption-fighting reforms. Their task will be to review the 
organizational structure, resources, and function of the Office of 
Internal Affairs.
    I believe it is also beneficial to recognize employees who 
demonstrate the highest levels of integrity. Last year, I initiated the 
``Commissioner's Integrity Award'' to reward anti-corruption efforts. I 
presented a $10,000 cash award to a U.S. Customs inspector who did 
everything right. Rather than simply accept or ignore a bribery offer 
he had received, he worked aggressively with Internal Affairs agents 
undercover to arrest the perpetrators on Federal bribery charges. I 
intend to make ``The Commissioner's Integrity Award'' an annual 
recognition.
    I want to ensure the Caucus members that as long as I am 
Commissioner of the Customs Service, integrity will remain the highest 
priority.
    That concludes my statement, Mr. Chairman. I'll be happy to answer 
any questions.

    Senator Grassley. Commissioner Kelly, we will wait until 
Commissioner Meissner is done for questioning.
    Would you please proceed, Ms. Meissner.

 STATEMENT OF DORIS M. MEISSNER, COMMISSIONER, IMMIGRATION AND 
       NATURALIZATION SERVICE, U.S. DEPARTMENT OF JUSTICE

    Ms. Meissner. Thank you. Mr. Chairman and members of the 
caucus, I, too, am very pleased to have this opportunity to 
discuss the INS' efforts to prevent drug-related corruption 
along the Southwest Border.
    INS shares the concern about the devastating impact that 
drug trafficking has on the health and safety of our 
communities, and I am proud of the role that INS personnel play 
in combatting this scourge. Last year, Border Patrol agents and 
Immigration inspectors, working along the 2,000-mile frontier 
with Mexico, seized more than one million pounds of drugs 
destined for American streets.
    Those serving on the front line in the fight against drugs 
face enormous pressures, including the ever-present threat of 
corruption. The lure of huge profits generated by drug 
trafficking is undeniably strong, especially for people of 
modest means who could earn a year's pay in one afternoon 
simply by looking the other way. Thus, INS is fully committed 
to taking all possible action to prevent corrupt behavior, to 
investigate allegations of corruption promptly and thoroughly 
and to punish those who violate the public's trust.
    We hold our employees to the highest standards of 
professional and personal integrity, and we take seriously our 
responsibility to reduce the opportunity for an employee to 
commit a crime and increase the risk of that employee being 
caught.
    We believe our integrity assurance measures are effective. 
A recent GAO study of the Southwest Border, where currently 
more than 8,800 Border Patrol agents and Immigration inspectors 
are stationed, found that 19 INS employees were convicted of 
drug-related crimes from 1992 through 1997. Agencywide, an 
average of 17 INS employees were arrested or indicted on 
Federal corruption charges per year related to their official 
duties over the past 3 years.
    These statistics speak well of the integrity and 
professionalism of the great majority of Agency personnel. At 
the same time, even a single instance of corruption is too 
many. At INS, we do have a zero tolerance policy. We recognize 
that the primary responsibility for combatting corruption rests 
with the Agency itself. To be successful, we have to have a 
value system within INS that clearly communicates both the 
parameters of acceptable behavior and the penalties for acting 
outside those parameters. Where we begin is with the 
recruitment and the training of new personnel.
    Over the past several years, INS has experienced 
unprecedented growth. With 7,350 Border Patrol agents currently 
on duty, we have more than doubled Border Patrol agent staffing 
along the Southwest Border since 1993, and by the end of this 
year we expect to have 2,423 inspectors at our land border 
ports. That is 98 percent more than in 1993.
    In the face of this growth, we have built a recruitment 
process whose goals include identifying and not hiring persons 
susceptible to corrupt behavior. Through a series of 
preemployment interviews and tests, we make an initial 
determination of an applicant's suitability to be an INS 
officer. Once selected for employment, all Border Patrol agents 
and Immigration inspectors undergo rigorous training that 
include courses on integrity, expected behavior, and ethical 
dilemmas and decision-making.
    At the time of entry on duty, all officers are subject to a 
single-scope background investigation. This is the most 
comprehensive background check the Office of Personnel 
Management conducts, and it exceeds the requirements 
established for officer core positions by both OPM and the 
Department of Justice.
    Our standards for reinvestigating all officers every 5 
years also exceed OPM and Justice Department requirements. This 
periodic check is well-known as one of the best internal 
corruption prevention mechanisms. In 1992, we instituted an 
aggressive program to eliminate a longstanding reinvestigation 
backlog. As a result of that backlog reduction effort, INS is 
now current and will remain current in the initiation of these 
investigations, including the adjudication of problem cases 
that arise from them.
    In addition to being subject to regular reinvestigations 
once they are on the job, INS officers also receive advanced 
integrity training from both Justice's Office of Inspector 
General and our own Office of Internal Audit. Since 1995, our 
Office of Internal Audit has provided advanced training to more 
than 3,000 INS employees on the Southwest Border.
    We also combat corruption through the policies and 
procedures that govern our work assignments. For example, just 
2 months ago, we issued new guidance for inspectors that 
further reduces the potential for predictable inspection 
assignments. Additionally, our Office of Internal Audit 
conducts regular, comprehensive reviews of operations in every 
INS field office focusing on areas that are vulnerable to 
fraud, corruption or other abuses.
    Because no amount of precautions can entirely eliminate 
corruption, we must also be prepared to effectively handle 
allegations of corruption whenever they do arise. Both the 
Inspector General and our Internal Audit Office have 
established procedures that ensure that such allegations 
involving INS personnel are investigated thoroughly and pursued 
to an appropriate prosecutorial or administrative end. In 
addition, we recognize that every closed case is an opportunity 
to learn lessons on how to strengthen our policies and 
procedures, and we have begun to review past cases to that end.
    I appreciate your support to maintain our vigilance and to 
expand our anti-corruption efforts. We owe it to the tens of 
thousands of INS employees who carry out their duties 
vigorously, and honorably and to the people they serve.
    Thank you, Mr. Chairman, and I am happy to answer 
questions.
    [The prepared statement of Ms. Meissner follows:]
 Prepared Statement of Doris M. Meissner, Commissioner Immigration and 
           Naturalization Service, U.S. Department of Justice
                              introduction
    The Immigration and Naturalization Service (INS) believes that its 
employees must be held to the highest standards of professional and 
personal integrity, and takes very seriously its responsibility to 
ensure that employee support systems and an objective, thorough and 
fair internal investigation process are in place. My commitment to a 
strong internal integrity program has been clearly communicated to 
employees of all levels.
    Corrupt behavior, by its very nature, is secretive and hidden. When 
it is uncovered, the Agency is inevitably in the position of having to 
react, which the INS does by taking every step to ensure that a matter 
is immediately and fully investigated, and that appropriate judicial 
and administrative actions are taken. During 1996 through 1998, an 
average of 17 INS employees were arrested or indicted on Federal 
corruption charges related to their official duties. A single such 
instance cannot be and is not tolerated.
    Rather than simply being in the position of reacting when an 
employee faces corruption charges, however, the INS is committed to 
utilizing proactive measures to prevent its employees from becoming 
involved in corrupt behavior. People are human, and the temptations, 
particularly the willingness of drug dealers to pay large sums of money 
to Federal employees to facilitate smuggling, are great. Realizing that 
the primary responsibility for combating and preventing corruption 
remains with the Agency itself, our goal over the past several years 
has been to strengthen and enhance our processes for (1) recruiting and 
screening potential and existing employees, (2) training, and (3) 
internal affairs and audits. Our efforts on these fronts have been with 
the ultimate goal of establishing a value system within the Agency, 
which clearly communicates the parameters of acceptable and non-
acceptable behavior.
                 recruitment and screening of officers
    Over the past several years, the Border Patrol has undergone 
unprecedented growth nationwide. We have increased the number of agents 
from 3,965 in 1993 to 7,982 by the end of Fiscal Year 1998, and have 
received funding for 1,000 additional Border Patrol Agents in Fiscal 
Year 1999. Once fully staffed, this will represent a 126 percent 
increase in Border Patrol Agents since the end of Fiscal Year 1993.
    Likewise, our Immigration Inspector Officer corps has increased 
from 3,297 inspectors in Fiscal Year 1993 to 4,853 inspectors in Fiscal 
Year 1999, an increase of 32 percent.
    Border Patrol Agents and Immigration Inspectors often represent the 
``first line'' in this country's drug interdiction efforts. Our Border 
Patrol Agents make over 1.5 million apprehensions per year. In 1998, 
Border Patrol Agents made 6,665 drug seizures along the northern and 
southern U.S. borders. They seized a total of 871,417 pounds of 
marijuana, 22,675 pounds of cocaine, and 501 ounces of heroin.
    Our Immigration Inspectors at our Ports-of-Entry (POEs) conduct 
almost 500 million inspections per year. In excess of 400 million of 
these inspections are conducted along the land borders with Mexico and 
Canada. In 1998, Immigration Inspectors were responsible for almost 
2,300 drug seizures and over 2,000 drug-related arrests. Close to 
160,000 pounds of controlled substances, including marijuana, cocaine 
and heroin and valued at more than $240 million were interdicted by our 
officers.
    In light of their duties, our officers are at risk of outside 
attempts to compensate them to ``look the other way.'' As part of our 
commitment to integrity, we have continually improved the recruitment, 
selection and training of the expanded Border Patrol Agent and 
Immigration Inspector officer corps. We seek out professionals and 
strive to best equip them to perform their duties with pride.
Recruitment and Screening
    To begin with, the INS utilizes a systematic recruitment and 
selection process to identify and to preclude the hiring of persons 
susceptible to misusing their position for personal gain, or who may be 
receptive to approaches from those seeking to evade or break the law. 
Recruitment and selection for an INS officer position is a very 
extensive and lengthy process. Applicants must undergo a myriad of 
screening tests before they are offered a position.
    Applicants begin the process by calling a Telephone Application 
Processing System (TAPS) and apply for either a Border Patrol Agent or 
an Immigration Inspector position. They are asked a series of questions 
from a 16-page script and based upon their answers, we determine 
whether the applicant qualifies to be scheduled for entrance testing. 
Border Patrol applicants may also apply via the Internet. Potential 
candidates for Inspector positions can also apply through the Veterans' 
Readjustment Act or the Outstanding Scholar Program, which waives the 
written test requirement.
    Several of the questions asked focus on suitability for employment 
as an officer. Applicants are asked if they have ever been convicted of 
a misdemeanor crime of domestic violence. If they answer ``yes,'' they 
are advised that the INS cannot hire them. This question has been asked 
since November 1996. For Fiscal Year 1998, 1,534 applicants have been 
disqualified as a result of a ``yes'' answer. Other misdeanor crimes of 
violence are also disqualifying unless they have been expunged, set 
aside, or for which civil rights have been restored. Since January 
1996, applicants are also asked if they have ever been convicted of, or 
have forfeited collateral as a result of, a felony violation. Again, if 
the applicant answers in the affirmative, they are advised they cannot 
be hired. For Fiscal Year 1998, this question screened out 336 
applicants.
    Once an applicant makes it to the testing phase, the INS uses 
state-of-the-science written instruments to screen out applicants who 
are likely to exhibit questionable behavior once on the job. Applicants 
for Immigration Inspector positions must take a Test of Reasoning 
Skills and Verbal Ability and an Applicant Assessment Test, which 
assesses the extent to which individuals are prone to such 
counterproductive behaviors as the misuse of their official position or 
use of excessive force.
    Applicants who take the Border Patrol Agent exam undergo a four-
and-one-half hour assessment battery that is divided into three parts: 
(1) Test of Reasoning Skills and Verbal Ability; (2) either the 
Spanish-Language Proficiency Test if they can speak Spanish, or the 
Artificial Language Test if they cannot speak Spanish; and (3) an 
Applicant Assessment Test. Applicants are ranked on their scores in the 
Test of Reasoning and Verbal Ability. The other two assessments are 
administered on a pass/fail basis.
    Applicants who score 70 points or above are then referred to a 
Border Patrol Oral Board panel. The oral boards are formally structured 
interviews administered by a panel composed of three senior Border 
Patrol Agents. The oral boards assess the following competencies: 
judgement and decision making, emotional maturity, interpersonal and 
cooperation skills, and sensitivity to the needs of others. Border 
Patrol applicants who pass the oral boards receive a tentative offer of 
employment subject to their passing the remaining pre-employment review 
processes.
    Both Border Patrol Agents and Immigration Inspectors must pass a 
pre-employment medical exam, as well as a drug screening before being 
hired. A full background investigation is conducted at the time of 
entry on duty and is updated every 5 years. Border Patrol Agents and 
Immigration Inspectors serve a one-year probationary period after being 
hired.
Background Investigations and Reinvestigations
    For current employees, the INS complies with Office of Personnel 
Management (OPM) and Department of Justice (DOJ) policies requiring 
employment reinvestigations to be completed every 5 years. Prior to 
Fiscal Year 1992, INS had a backlog of overdue background 
reinvestigations. Realizing that one of the best internal corruption 
prevention mechanisms we can employ is to periodically re-check the 
backgrounds of our existing employees, we began a concerted effort to 
address this backlog. At the end of Fiscal Year 1997, we had requested 
background reinvestigations on all INS employees who were due or 
overdue for a reinvestigation. The INS maintained currency for 
reinvestigation requests during Fiscal Year 1998 and expects to remain 
current in Fiscal Year 1999.
    The five-year reinvestigations, or Periodic Reinvestigation (SSBI-
PR), are conducted on all Border Patrol Agents, Immigration Inspectors 
and other employees with security clearances. The SSBI-PR is the most 
comprehensive reinvestigation offered by OPM, and exceeds the DOJ 
investigative scope requirements.
    For new hires, the INS requires that all applicants for Border 
Patrol Agent and Immigration Inspector Officer Corps positions undergo 
a 35-day Single Scope Background Investigation (SSBI) processed by the 
OPM at the time of selection. The OPM utilizes the United States 
Investigative Service (USIS), a private contractor, to conduct these 
investigations. The SSBI is the most comprehensive in-depth 
investigation OPM conducts and well exceeds DOJ requirements for these 
Critical-Sensitive level positions.
    In order to expedite the entry on duty of applicants, an initial 
screening called a Preliminary Background Investigation (PBI) is 
conducted as part of the SSBI. In most cases, however, the full 
Background Investigation is completed prior to the employee's entry on 
duty. The PBI screening process includes a review of the applicant's 
completed security questionnaire, a subject interview, national agency 
checks including FBI criminal history checks, credit checks, Bureau of 
Vital Statistics checks, and prior employment checks. The applicant is 
allowed to enter on duty only if no actionable suitability issues 
surface in the initial screening process.
    The initial SSBI as well as the reinvestigations that are conducted 
for Border Patrol Agent and Immigration Inspector positions are 
extremely comprehensive and exceed the DOJ requirements. The resulting 
investigative products provide INS with an in-depth view of an 
applicant or a current employee's background. With these measures in 
place, INS is assured of a quality screening process that identifies 
and eliminates unsuitable candidates.
    The reinvestigation process also pinpoints existing employees who 
may be living beyond their means, or who have exhibited changes in 
behavior such as involvement with local authorities or possible 
substance abuse undetected in the workplace. The INS Office of Security 
and the Office of Internal Audit have in place a system to ensure that 
issues raised in a background reinvestigation are referred for 
consideration of a criminal or administrative investigation as 
appropriate.
                                training
    The INS has made significant progress over the past 4 years to 
ensure that our law enforcement officers are trained to be 
professionals who are proud of their mission.
    We require that INS officers meet basic qualification requirements 
in education and/or prior work experience, receive extensive technical 
training in their area of specialty, and are thoroughly grounded in 
ethics and standards of conduct for law enforcement officers. To remain 
in an officer position, an INS employee must demonstrate exceptional 
knowledge and skill in all of the technical aspects of the job, as well 
as practice the ethical requirements of the profession.
    The Border Patrol and Immigration Officer Basic Training Programs 
are residential courses of study conducted by INS training officers at 
the Federal Law Enforcement Training Center in Brunswick, Georgia and 
Charleston, South Carolina.
    The programs use a task-validated curriculum and emphasize personal 
discipline, integrity, professionalism, and employment of sound 
judgement and technical skills.
    Throughout the basic training programs, emphasis is placed on 
courtesy and interpersonal skills. All classes emphasize proper conduct 
toward and respect for all persons with whom they come into contact, 
both on and off duty. A set of core values has been established as the 
basis for ethics and integrity training. Specific courses address the 
issues of human and civil rights and give the trainee careful 
instruction in the manner in which he or she is expected to carry out 
assigned duties. Training in technical subjects stresses sound 
judgement and judicious use of force and enforcement authority.
Post Academy Training for Officers
    After successfully completing the Border Patrol Academy or 
Immigration Officers Basic Training course, trainee agents and 
inspectors return to their duty station to continue their training and 
to complete their probationary year. Training in the field is a 
combination of classroom instruction and on-the job training wherein 
new Agents and Inspectors continue the learning process by working 
closely with experienced officers.
    Examinations in law and Spanish are given to agents upon completion 
of six and one half and then 10 months of service. Those agents who 
successfully complete the post academy training are retained while 
those who fail either examination are terminated. After these 
examinations are successfully completed, a panel of high-level 
supervisors reviews each agent's progress and work performance. 
Supervisory assessment of the performance and judgement of new agents 
is another factor in the completion of the probationary year.
Supervisory Training
    The unprecedented growth of the INS in the past several years has 
led to many promotion opportunities for our employees. Recognizing the 
swell in our management corps, in March 1996, the INS opened its 
Leadership Development Center (LDC) in Dallas, Texas, to address the 
needs of our first line supervisors and managers. It is imperative that 
we provide our supervisors and managers with the skills necessary to 
manage day-to-day operations, and to be proactive in identifying and 
addressing potentially problematic behavior.
    The core curriculum of the LDC consists of six progressive courses 
in supervision, management, and leadership, which are available 
throughout the year. These courses are designed for attendees to 
explore together best management practices and emphasize teamwork, 
empowerment, recognition of diversity, preventing sexual harassment, 
communication and listening, and giving and receiving feedback. Each of 
these courses has a specific section dedicated to discussions of 
integrity, values, ethics, and the role of the supervisor or manager in 
communicating these expectations.
    Since Fiscal Year 1996, 4,297 INS managers and supervisors have 
attended training at the LDC.
    The LDC has added to its available courses Employment Issues for 
Executives, which covers misconduct issues and the disciplinary 
process, and Dealing With Difficult Employees, which focuses on 
communication, negotiation and how to deal with people to achieve a 
positive outcome.
Support, Supervision and Monitoring of Officers
            Assimilation
    As greater numbers of new employees are assigned to their duty 
posts, the INS supports, supervises and monitors their activities to 
ensure effective performance and professional standards of conduct, as 
well as to identify and investigate problem behavior. We realize that 
employees who become vested in the mission of the agency and feel that 
they are supported in their career path are those least likely to 
engage in misconduct. They are also those most likely to remain loyal 
to the agency. Accordingly, we implemented an employee Sustainment Plan 
designed to support and retain employees.
    As part of the Sustainment Plan, the INS has implemented employee 
and family support systems not unlike those provided by the United 
States military and other Federal agencies. In May 1997, I reported the 
initial activities and expectations of our INS CARES program. I am 
happy to report to you today that the program has enjoyed considerable 
success in its initial trial implementation in three Districts and 
three Sectors along the Southwest border. We are at the threshold of 
expanding the program throughout the Service.
    Assimilation is one of the major Sustainment Plan components. INS 
CARES incorporates a variety of supportive activities designed to help 
employees and their families adapt to new communities as well as to the 
working environment. A comprehensive orientation plan is being used in 
the six pilot field jurisdictions and at INS Headquarters. 
Informational videos and printed materials describing the INS, and what 
new employees can expect, are in daily use as part of the program.
    INS CARES provides employees who move to a new location with a 
variety of informative welcoming communications, including orientation 
briefings for spouses and families. Extensive community-specific 
information related to local schools, services, and activities are 
provided to employees in workshops and seminars. These activities 
provide employees with information from local and State Chambers of 
Commerce, other public and private sources, and the Internet.
    INS is well aware that first-line supervisors are the key to 
effective assimilation of new employees. Many of our supervisors are 
relatively new to the job. To this end, INS CARES, in conjunction with 
our Leadership Development Center, is providing advanced training for 
supervisors to sensitize them to the needs of new employees. INS CARES 
and the Training Division have developed, tested and deployed a multi-
media course, ``Assimilation Training for Supervisors,'' which builds 
on the concepts taught in the Basic Supervision Course. This advanced 
course is designed to teach supervisors how to identify potential 
problems in adjusting to new locations or duties, and how to prevent 
major infractions. The unique aspect of this course is that it is a 
field-administered course using interactive technology such as case 
studies contained on CD-ROM disks.
            Initial Assignments and Supervision
    Currently, we do not assign new Border Patrol Agents to locations 
where they grew up. Additionally, in their first year, new agents are 
teamed with journeymen level employees, and are closely supervised on 
any independent assignments.
    At land POEs, the INS has set forth guidance establishing a uniform 
national integrity policy for primary land border inspections. Under 
this policy, each POE must utilize one or more selected options 
regarding vehicle and pedestrian lane scheduling, and implement it at a 
minimum of once per shift. The scheduling options are:
    1. Agency ``pushes,'' in which a Supervisory Immigration Inspector 
randomly instructs officers to shift lanes.
    2. COMPEX/INTEX ``hits'' are random inspections performed by both 
Customs and INS. Customs' selects an individual to undergo a thorough 
inspection prior to any primary inspection. INS selects an individual 
after primary inspection to ensure people are being properly processed. 
Any time there is a ``hit'', there is an automatic lane assignment 
shift.
    3. Traffic managers initiation of random lane flops for primary 
lane changes of both INS and Customs Service staff.
    4. Computer-generated random lane assignments and shifts.
    To enhance the integrity of the inspection process, the policy also 
requires that an automatic lane push or flip-flop will occur when 
inspecting officers encounter a relative. Additionally, the POEs have 
been reminded to continue the standing requirement to inspect all law 
enforcement personnel.
            Border Coordination Initiative
    On August 12, 1998, the Commissioner of the United States Customs 
Service and I forwarded a memorandum to the Attorney General outlining 
our proposal for a Border Coordination Initiative (BCI). Since that 
original plan, we have identified eight core initiatives, with the goal 
of creating a seamless process at and between land border POEs by 
building a comprehensive, integrated border management system to 
effectively accomplish the mission of each agency.
    Those initiatives are underway and include: implementation of a 
successful, proven Port Management Model at all major land POEs; 
expansion of intelligence sharing; making joint improvements in 
policies, procedures, and training; adoption of a unified investigative 
approach for contraband seizures; performance measurements; development 
and deployment of enhanced technology systems; promotion of a 
communications system to support INS, Customs, and the Border Patrol; 
and coordination of air and marine interdiction capability.
    Our shared vision in the BCI is to enhance port leadership, 
community support, traffic management and enforcement efforts, and to 
ensure the duties of both Services are carried out with efficiency, 
professionalism, and integrity.
                       internal affairs and audit
    From the historical perspective, I note that in 1989 more than 130 
employees of the INS Office of Professional Responsibility, who were 
responsible for conducting both criminal and administrative 
investigations into allegations of employee misconduct, as well as 
field inspections, were transferred to the Office of Inspector General 
upon the creation of that office. In 1992, the Office of Internal Audit 
(OIA) was established within INS to manage both the internal 
investigation and internal review programs in the Agency. Our efforts 
have established an effective internal affairs program, and have begun 
to move us to the point of preventing fraud, waste, abuse, and 
mismanagement, rather than merely reacting to individual incidents.
Internal Investigations
    The OIA plays a pivotal role in the Department's processes for 
handling misconduct complaints against INS employees. It not only 
investigates a large number of complaints itself, but it also monitors 
the progress of investigations tasked to other entities. It ensures 
that substantiated cases, which are not prosecuted, are complete for 
the purposes of initiating and sustaining disciplinary action when 
warranted. It also engages in a variety of innovative activities and 
programs aimed at preventing misconduct from occurring in the first 
place. The OIA continuously strives to instill within the Agency a 
culture in which employees can predict that when they make a complaint, 
or when a complaint is made about them, there will be a swift, 
impartial resolution of the matter.
    INS managers and supervisors play a fundamental role, in concert 
with the OIA, in preventing corruption. Most often, the arrest or 
indictment of an employee on corruption charges represents the end of a 
history of progressively serious misconduct. We are always striving to 
identify and deal immediately with all conduct problems, particularly 
lower-level misconduct. The OIA has established excellent communication 
with field managers to assist them in identifying possibly escalating 
behavior and to deal with it quickly, effectively and fairly.
    Our own OIA has ultimate responsibility for resolving the vast 
majority of misconduct matters within the agency. In 1998, the OIA 
received 3,718 allegations of misconduct, and had primary 
responsibility for resolving 3,377, or 91 percent, of those 
allegations. In 1998, the OIG opened 323 investigations related to INS 
employees. The OIA opened 598 investigations that same year.
    Potential criminal violations are reviewed by the OIA upon receipt 
and forwarded to the OIG or the Department of Justice's Civil Rights 
Division as appropriate, for investigative consideration, or are 
reviewed initially by investigators and prosecutors outside the INS. 
While investigations being conducted by outside entities are in 
progress, the OIA effectively tracks, monitors and follows up with the 
organization conducting the investigation.
    When the OIA refers a matter to the OIG, the OIG may initiate an 
investigation, refer the matter back to OIA for investigation and 
require a report of findings, or refer it to the OIA for information.
    When the OIA receives a matter, it either investigates itself or 
refers the case to the appropriate field manager for a management 
inquiry and report of findings. In cases referred for a management 
inquiry, the OIA oversees the process to ensure that the inquiries are 
thorough, unbiased and timely. The OIA has issued a Management Inquiry 
Handbook throughout the Service, which provides clear guidance as to 
the process for resolving lower level allegations of misconduct. It 
also has implemented a highly regarded management inquiry training 
program which to date has been presented to over 300 field managers. 
That program, in addition to providing guidance on conducting 
inquiries, also stresses proactive management via identification and 
resolution of lower level instances of potential misconduct.
    If the OIA does not determine that an inquiry is warranted in a 
matter, it refers the case to local management for information. Even in 
those cases, the OIA provides local management the option of conducting 
a management inquiry under OIA oversight.
    On receipt of a report of investigation or inquiry-be it an 
investigative report by one of its own staff, a report of a management 
inquiry, or an OIG or FBI report of investigation--the OIA conducts a 
review to ensure that the allegations at issue have been addressed, 
that the necessary evidence has been obtained and properly weighed; and 
that systemic problems have been identified and addressed. Where a 
report of inquiry or investigation is found to be insufficient for the 
purpose of allowing the appropriate official to make a determination 
regarding corrective action, the OIA directs or conducts additional 
investigation as appropriate. These procedures ensure that all cases of 
alleged misconduct by INS employees are fully and fairly examined, 
first as potential bases for criminal prosecution, then as potential 
bases of disciplinary action.
    The OIA also recognizes that investigations, which do not identify 
specific misconduct, may identify systemic vulnerabilities or internal 
control weaknesses which facilitate or contribute to misconduct or 
fraud, waste and abuse. The OIA has in place a process for 
communicating systemic findings, and their policy or training 
implications, to the appropriate senior level managers, and 
recommending those issues be addressed to prevent future incidents.
    The OIA has implemented and manages several proactive programs 
designed to reduce and prevent misconduct and strengthen communication 
within the Agency. The OIA is currently working with field managers and 
our bargaining units to design and establish an Early Intervention 
System for the entire workforce. The EIS will identify employees who 
may be experiencing stress or other influences that may cause them to 
be at risk for being named in misconduct complaints. The EIS will 
provide a non-punitive intervention strategy for employees to address 
and resolve concerns before behavior escalates into more serious 
misconduct. Such intervention measures have been proven at--other law 
enforcement agencies nationwide to reduce actual number of complaints 
received, to improve morale, and to increase the professionalism of the 
organization.
    The OIA is also designing and providing training programs aimed at 
supporting effective, proactive management and communication. In 
addition to its management inquiry-training program, the OIA continues 
to present its eight-hour ``Integrity and Ethical Decision Making'' 
professional development seminars. Over 1,000 employees attended the 
seminars in 1998, bringing the total number of employees receiving this 
training to over 3,000. The target audience, initially supervisors, has 
been broadened to all employees. Seminar discussions focus on values 
important to the class, and factors that cause people to make decisions 
that have negative consequences. Methods for weighing alternatives for 
judging consequences before making decisions are provided as tools for 
everyday use. Attendees welcome the interactive nature of the course 
and the positive way in which the information is presented. Although 
the course has mainly been given at locations along the Southwest 
border, it will be provided in a wide variety of locations in 1999. The 
Director of the OIA and the Director of the INS Leadership Development 
Center are discussing inclusion in the Center's offerings of a two-day 
seminar on this topic.
    The OIA also has a program in place for conducting followup reviews 
of circumstances leading to the arrest or indictment of employees on 
drug-related or corruption charges. The purpose of these reviews is to 
ascertain what, if any, warning signs or other indicators of personal 
problems were present prior to the judicial action. Co-workers, 
supervisors, and personal associates are interviewed to obtain their 
observations. Where possible, the employees themselves are questioned 
to deterrnine if they ever sought assistance for personal problems or 
if a supervisory or other employee demonstrated concerns about their 
behavior or work performance. The findings of these reviews are shared 
with senior agency managers with an eye to strengthening procedures, 
training, and level of communication.
INSpect
    In June 1995, recognizing the need for an independent assessment of 
field operations, the Director of OIA, gained approval to reestablish 
the field inspections function. In September 1996, I approved full-
scale implementation of the program: the INS Program for Excellence and 
Comprehensive Tracking (INSpect).
    To date, the OIA has conducted 39 INSpect reviews. Of the 39 
reviews, 16 included reviews of INS Border Patrol Sectors. Nine of the 
16 are located in the Southwest region that encompasses 90 percent of 
INS' total Border Patrol force. By assessing management effectiveness, 
determining compliance with applicable laws, regulations, and 
procedures, and especially by focusing on areas in INS functions that 
are highly vulnerable to fraud, waste, abuse, or mismanagement, INSpect 
represents a very valuable anti-corruption tool. INSpect will review 
each INS field office every two to three years.
    The OIA has also analyzed the findings and recommendations made in 
the INSpect reports, and has issued a publication known as INSpect 
Alert to INS Management. An INSpect Alert covers a particular function, 
and identifies patterns of weaknesses, solutions, strengths, and 
noteworthy program ideas that may have Servicewide application. It lets 
management know about the problems repeatedly found in INSpect reviews. 
The OIA has issued INSpect Alerts in 12 program areas.
    Additionally, the OIA has employed a followup team to track 
corrective actions on recommendations made in the INSpect reports. The 
OIA has completed 10 followup reviews, and will continue to follow up 
with the responsible parties to ensure management accountability and to 
verify the consistent implementation of required corrective actions.
                               conclusion
    In summary, INS' uniformed officer corps, the Border Patrol, and 
Inspections Division have experienced unprecedented growth in the last 
several years. This is due to Congressional support for the expansion 
of the officer corps with increased funding for recruitment and 
training as well as more supervisors, and the independent monitoring of 
Service personnel and activities. Over that past 3 years, we have hired 
more than 4,000 new Border Patrol Agents and Immigration Inspectors. At 
the same time, we have increased the effectiveness of our screening and 
training mechanisms. We realize that the men and women who do these 
jobs are faced with ever-present attempts to get them to look the other 
way by drug smugglers.
    We remain committed to continuously reviewing and improving our 
efforts to reduce to a minimum the likelihood that individuals 
susceptible to corruption will be selected or kept within our officer 
corps. The combination of our screening process, along with Academy and 
post-Academy training, plus a strong internal affairs and review 
program, helps to keep our officers in a constant state of readiness to 
deal with enticements to become corrupt.
    We expect that our efforts will continue to further reduce the 
potential for corruption, which remains as isolated instances within 
the Service.
    We appreciate the attention of this caucus to the challenges we 
face and, again, thank the Congress for its support.
    This concludes my written testimony. I will now answer any 
questions you may have.

    Senator Grassley. Before I start to ask questions, is it 
going to cause any problems for my colleagues if we have 10-
minute rounds for each person instead of 5 and then come back 
for a second round?
    So put the light on, will you, please. Before I ask 
Commissioner Kelly, I want to thank Commissioner Meissner for 
helping us get some more investigation officers in the State of 
Iowa for the INS. Thank you very much for responding to Senator 
Harkin and our request.
    Commissioner Kelly, there appears to be no coherent 
response to existing corruption problems. It is my 
understanding that there is no consistency in how 
investigations are conducted by Internal Affairs. So does 
Customs have a point of responding to this? And if so, how do 
you propose to remedy the situation?
    Mr. Kelly. Mr. Chairman, we have major changes that we have 
initiated and are in the process of initiating in our internal 
investigative system. I think the most important one was the 
appointment of Mr. Keefer that I mentioned in my remarks. He 
has great experience in this regard, and I have a lot of 
confidence in him.
    We are also involved in a rotation, as I mentioned, getting 
new blood, new investigators into Internal Affairs. We are 
embarking on training programs going outside the Agency to get 
training for our internal investigators. We have put in place a 
new system where all allegations of wrongdoing, of corruption 
of any sort, are going to one central location. It is 
administered by the Internal Affairs Bureau. And an analysis of 
all complaints that come in, in a 24-hour period, are done that 
morning by senior Internal Affairs people, and then they are 
properly distributed.
    We put in place a system that will enable us to do strictly 
administrative investigations, using managers in the field, but 
using fact finders to help them gather information. There has 
been also a lot of work on our computerized system. Right now 
the system that Internal Affairs has, well, it was not properly 
utilized, quite frankly in the past. We are utilizing it. We 
are also developing a plan, which will take some money, to mesh 
it with our human resources information system. The two have 
not been speaking to each other.
    I think we are well on the way to making the Internal 
Affairs operation extremely professional and certainly one of 
the best in Government. It is going to take some more time, no 
question about it. We have got to identify the right people. We 
have got to get some very specific training for the 
investigators that I think they have been lacking, but I think 
we have identified the problems, and we are addressing them.
    Senator Grassley. Commissioner Kelly, earlier we heard the 
General Accounting Office comment on some of the difficulties 
encountered with financial disclosure requirements currently 
required in the background investigations. Do you believe the 
information gathered from such disclosures are valuable in 
determining the integrity of Customs employees?
    Mr. Kelly. Yes, I do.
    Senator Grassley. How essential do you see this disclosure 
in assuring the effectiveness of Customs' integrity program?
    Mr. Kelly. Well, I think it plays a role. It is not the 
total answer. As was stated before, people can lie filling out 
these forms, but I think it is a basis for investigation. It is 
something that we should use and do use in prehire 
investigations and also in the periodic reinvestigations. I 
think we have to look at just how well we do use it. But we are 
using it.
    Senator Grassley. Commissioner Meissner, based upon what 
you just heard Commissioner Kelly say, what are your thoughts 
on including financial disclosure as part of the background 
checks for INS employees?
    Ms. Meissner. We have not used a financial disclosure 
statement as part of our background checks. It is the only 
thing in the GAO report with which we have had a difference of 
view.
    Our feeling has been that we are extremely interested in 
financial information, and we seek and review financial 
information through a variety of means. We have felt that it is 
more effective in looking at the issue of whether people live 
beyond their means to do that through the interviewing of 
neighbors, colleagues, others who know the people, which is 
routinely done as part of the background investigation and the 
reinvestigation. In addition to that, we make extensive use of 
credit checks and other financial checks and have felt that 
that meets the need.
    Senator Grassley. Commissioner Kelly, it is alleged that 
inspectors have told drug dealers which lanes to take. Senator 
Feinstein has referred to that. Is Customs doing anything to 
address the fact that drivers of vehicles entering the United 
States on the Southwest Border can themselves choose which 
officers conduct their primary examination? And if so, what 
would you do to stop that or what have you done to stop that?
    Mr. Kelly. There is a program in place called Primary Lane 
Denial, where Customs inspectors and INS inspectors, as well, I 
believe, are involved in directing traffic to randomly go to 
different lanes. However, I think the answer to this issue lies 
in automation.
    In El Paso, we are developing and will soon be put up and 
running an automated redirection of traffic; in other words, 
telling the driver what lane to go to. However, it cannot be 
used at every port of entry because you need a certain amount 
of space to be able to redirect the traffic. Example, in 
Nogales, AZ, the border comes right up to the booth, to the 
inspection booths. Whereas, in El Paso, you have a certain 
distance. In San Ysidro, there is a distance between the 
border, what we call a preprimary area that is between the 
border and the booth where the inspectors are.
    So I believe that it is a valid comment, and we are doing 
it now manually. We are doing it with people. Ideally, we 
should be doing that with some automated system, and we are 
developing that system.
    Senator Grassley. Commissioner Meissner, recently the 
Office of Special Counsel urged the reinstatement of a veteran 
Immigration and Naturalization Service agent who was considered 
a whistleblower. Any time a whistleblower is retaliated against 
by an agency, I think that it creates an atmosphere that may 
inhibit others from speaking out. So I would like to ask if you 
have any comments on that case.
    Ms. Meissner. I do not have any comments on that case. In 
general, I would say that we want our employees to come forward 
with information that is important. One of the things that has 
been particularly gratifying in the area of anti-corruption 
efforts in our building of our own integrity measures within 
INS is the fact that we are seeing more and more of the 
information on allegations being brought to us by our own 
employees. That tells us that they do trust the systems that 
are in place and do trust management, increasingly, to follow 
up on allegations of misuse of authority.
    So we would continue and work very hard to cultivate that 
kind of behavior on the part of our employees.
    Senator Grassley. Do you have any plans for dealing with 
that particular case?
    Ms. Meissner. Well, in that particular case, I would 
obviously, if it is an Office of Special Counsel case and 
issue, we go through whatever the procedures would be, and 
there will be an--I do not know what the appeal issues are and 
so forth. I would be happy to follow up, if----
    Senator Grassley. So in other words, your reason for not 
being able to answer my question is just not briefed on it 
right at this moment; is that right?
    Ms. Meissner. I am not fully familiar with the case. That 
is correct.
    Senator Grassley. Could I ask you, then, to get briefed on 
it and to tell me how you will respond to it?
    Ms. Meissner. I would be happy to do that.
    Senator Grassley. I would like you to do that.
    Could I also then follow up with what policies does the INS 
have in place to protect or encourage other employees to speak 
out when they believe there is mismanagement or corruption 
within an organization--well, in this case, the INS?
    Ms. Meissner. Sure. Part of the training of our officers 
and the ongoing responsibility of supervisors is to be certain 
that all employees are aware how to report allegations of 
improper behavior. In addition to that, we assure 
confidentiality. When those allegations come forward, we give 
employee awards through our award program for information that 
is important to the successful conclusion of a case and a 
variety of positive encourage techniques along those lines.
    Senator Grassley. Can I suggest that it is important that 
there probably be some guidelines in place so that an employee 
knows, with some certainty, about these procedures and 
protections.
    This will have to be my last question. Are you indicating 
that there is no such guidelines in place?
    Ms. Meissner. There are guidelines in place for how to do 
reporting.
    Senator Grassley. There are guidelines in place.
    Ms. Meissner. Very clear guidelines.
    Senator Grassley. I will now turn to Senator Graham. Thank 
you.
    Senator Graham. Thank you, Mr. Chairman.
    I would like to start with the answer to a question that I 
asked the GAO folks, and that is the effectiveness of various 
procedures relative to employee corruption, whether they are 
financial statements, efforts to follow lifestyle subsequent to 
employment, efforts to establish a baseline of lifestyle before 
employment. And the answer was that there had been insufficient 
evaluation of the effectiveness of any of those techniques to 
evaluate whether they were effective in accomplishing the 
purpose of identifying employees who had a high vulnerability 
to inappropriate activities.
    What is your level of confidence and what is the basis of 
that level of confidence in the procedures that you are 
currently using?
    Ms. Meissner. Let me begin. I would agree with the GAO 
statement that there are a combination of approaches that are 
required. There is no one, single approach that is the answer 
here. It is a variety of things taken together.
    I think that----
    Senator Graham. Well, now, excuse me, but I understood them 
to say something different, which was that they did not know 
what worked, whether what individual procedures or what 
procedures collectively had proven to be an effective barrier 
against corrupt behavior. Did I correctly state your answer to 
my question?
    So I guess do you, from your own experience, disagree with 
that evaluation of the absence of effective evaluation of 
procedures? And if you agree with it, then upon what do you 
base your level of confidence that what you are doing is 
effective?
    Ms. Meissner. Well, I think it is the case that we have not 
done formal evaluations of the various types of techniques that 
we use. We do, however, look to other agencies and other 
examples. We, for instance, in the case of the Immigration 
Service, I convened a Citizens Advisory Panel, over the course 
of the last several years, to look at our complaint procedures, 
to look at integrity measures in other law enforcement 
agencies, not simply at the Federal level, but State and local 
level, drew upon experts in the field.
    So while we do not have formal evaluations of these 
measures, we are very much in a constant-improvement, 
continuous-improvement stance on these issues. We are, for 
instance, right at the present time, developing a new early 
intervention system whereby we can try to identify employees 
before they become truly corrupt based on warning signs, 
working out ways with our managers to do those additional kinds 
of programs. We want to do more advanced integrity training 
than we are able to do. There are resource constraints, but we 
have been very aggressive where that is concerned.
    So I think looking to examples across the community of 
agencies, across not only the Federal Government, but State and 
local government is also a very good barometer, and that is 
something that we have relied on.
    Mr. Kelly. To a certain extent, Senator, of course, you 
have to look at the number of cases, corruption cases, that you 
have. Based on my experience, the number for an agency the size 
of Customs and the mission of Customs is relatively low. But I 
am not comfortable that we have been proactive enough, that we 
have searched out corruption enough on our own. The vast 
majority of these cases are coming from people who are arrested 
or are being some sort of informant or anonymous letter. I 
think one of the criteria may very well be how many cases do we 
find on our own, and that number is low, no question about it.
    We intend to be much more proactive, to do a much more 
effective job of debriefing people who are arrested, debriefing 
people who have been sentenced to prison, to get indicators 
concerning the potential for Customs corruption. So it is 
difficult to determine what works and what does not work. And, 
again, if you look just at the sheer numbers, there is not a 
major problem. But, again, I think we have to be much more 
active in ferreting it out on our own.
    Senator Graham. In that regard, I would like to ask about a 
couple of situations in my State of Florida. In the port of 
Tampa, there had been a number of complaints on issues of 
official misconduct, including sexual harassment. Customs 
failed to take action addressing these complaints for 14 
months, and during that period it was alleged that the same 
patterns of misconduct continued to occur.
    In cases where Customs personnel make official complaints 
alleging on-the-job official misconduct, what is your normal 
time period for an investigation and response to those 
complaints?
    Mr. Kelly. Well, it certainly should be much more shorter 
than that case. That case was not properly investigated, in my 
opinion. It went 14 months. The individual involved was 
ultimately demoted and transferred from its specific 
assignment. But the case took much too long. We have much 
shorter timeframes now that we have instituted. That happened a 
year or so ago. But we are acutely aware of that particular 
case and the inordinate amount of time that it took, and it 
will not happen again.
    Senator Graham. There have been a number of stories about 
professional and ethical conduct of Customs personnel. Many of 
these had, as their origin, Florida seaports or airports. These 
reports have included allegations of racial intolerance, sexual 
harassment, the use of racial profiles in selecting 
international passengers for personnel searches, mismanagement, 
association of Customs managers and field-level employees with 
known drug smugglers.
    Of even greater concern is the Customs' response to these 
allegations. It appears that the Customs' response has been 
inadequate investigation, excessive time delay in response, 
reassignment or promotion of offending individuals often to a 
position of increased responsibility and an attack on the 
whistleblower whose career is adversely impacted by bringing 
the information to public view.
    What actions have the Customs taken to refute or 
substantiate the allegations that have been made, and where the 
allegations have been substantiated, what actions have been 
taken?
    Mr. Kelly. Well, that is a complex question, Senator. There 
are a lot of issues there.
    A lot of these issues surfaced in a Miami Herald article in 
December 1998. I think we took those issues head on. We put a 
working group together right away in the organization. We 
looked at all of those allegations. Some of them definitely 
deserve reopening of investigations, which we did do. Some were 
too old to do anything about and some simply were not true.
    But as I say, we have taken them head on. The 
investigations are going forward. There has been disciplinary 
action that has been brought as a result of at least two of 
those open investigations. Some of the allegations were I think 
14 years old, 12-14 years old. Some of these things we simply 
could do nothing about.
    However, what we have done is put in place I think the 
means to address a lot of those concerns in a systemic way. We 
put in an agencywide Discipline Review Board, something that 
never existed before. We were getting widely disparate 
decisions as far as discipline is concerned. You could commit 
the same offense in San Diego and get a grossly different 
penalty than you could in, say, Miami. We now have in place, 
and we have done a lot of training with this, an agencywide 
Discipline Review Board that will make discipline fairer and 
more consistent.
    Another issue is the vetting of employees prior to 
promotion or reassignment. It simply was not being done. We 
have put in place that process to vet, to examine individuals' 
backgrounds. What happened, quite frankly, is records were kept 
on a local basis. So you could move from one port to another, 
and your personnel record just simply did not follow you. We 
have addressed that.
    As far as the allegation of racial bias and passenger 
processing is concerned, it is something that concerns myself 
and certainly the executive staff of Customs greatly. We have 
done a lot to address that issue, but we are open to 
recommendations and suggestions. We put in place 2\1/2\ weeks 
ago a panel of distinguished Government employees to look at 
this issue. We have given them unfettered access to the Customs 
Service to look at our practices and procedures to determine if 
there is, in fact, bias in our procedures. There are certainly 
none in our policies.
    We, at airports, have put up signs that, in essence, tell 
people that there is a possibility that they may be searched. 
We brought technology to bear. We put body scanning/imaging 
equipment at Miami International Airport and JFK to avoid the 
possibility that someone may have to be patted down, at least 
give them the option. We brought in Booz-Allen consultants to 
take a look at our processes. They have made recommendations. 
We are implementing those recommendations, but we are simply 
not going to tolerate bias as far as passenger processing is 
concerned.
    This committee, actually meeting this evening, we will be 
meeting with them, has been given unfettered access, as I said. 
They can look wherever they want in the Agency and speak to 
whomever they want to speak to, to bring this issue to a head 
and address it as they see fit.
    Senator Graham. Thank you, Mr. Chairman.
    Senator Grassley. Senator Sessions.
    Senator Sessions. Nothing at this time.
    Senator Grassley. Senator Feinstein.
    Senator Feinstein. First of all, Mr. Chairman, I very 
greatly respect both these people in front of me. I have wanted 
a law enforcement person to head Customs ever since I have been 
in the Senate and finally got one. So now I am going to give 
him a bad time.
    [Laughter.]
    Senator Feinstein. But let me begin with Commissioner 
Meissner, first, in my bad time.
    I really question the judgment not to have financial 
disclosures from anyone working the border in any capacity 
whatsoever from the top of the agencies involved to the bottom. 
Let me give you one quote from the Orange County Register that 
I think gives the reason for this.

    In one case, the INS did not question a Border Patrol agent 
who owned a house with a five-car garage, an olympic-size 
swimming pool housed in its own building. The agent also had 6 
vehicles, 2 boats, 100 weapons, $45,000 in Treasury bills and 
40 acres of land.

    Now, I do not know if that is true or not. That is really 
not the issue. The issue is we all know corruption is going on. 
I believe it is the single biggest national security threat 
facing this Government. And to have officials working the 
border, whether it is the head of the Agency to the lowest 
secretary, that does not file a financial disclosure statement 
under penalty of perjury is something I cannot understand.
    So if it is not remedied, it is going to be my intention to 
write legislation to require one every 3 years and do so under 
penalty of perjury because I think the money that comes out of 
the cartels is just too big for many people to withstand, and I 
think at least if you have a financial disclosure system, 
somebody does come into the Agency, has considerable assets, 
that is fine. You know it in the beginning. But if suddenly, 3 
or 6 years into a tour of duty, all of these accoutrements 
emerge, then you can question. So that is really not a 
question. It is a statement, and this Senator feels very 
strongly about it.
    Now, let me just turn to Customs, if I might. Customs has 
issued some new proposed guidelines for inspectors which if 
approved, would require inspectors to obtain a supervisors 
approval before he can do a pat-down or a search of a person 
for contraband. Presently, an inspector uses his own discretion 
and can do a pat-down without a supervisor's approval.
    Why is a supervisor's judgment any better than the 
inspector's? Inspectors now do pat-downs all day long and many 
are seasoned veterans. This would be a significant change, 
having to get a supervisor's approval, and in the opinion of 
some of your inspectors, would diminish the Agency's 
enforcement.
    Mr. Kelly. Senator, I think we are attempting to address 
the allegations of bias in our passenger processing procedures. 
We are being sued in 12 locations throughout the country. And I 
think it is prudent to have another opinion, and that is why we 
want a supervisor to be involved. I do not believe it slows 
down the process. Indeed, we are trying to use, as I say, 
technology to give people the option of not being patted down 
because this technology right now only looks through clothing. 
It does not look through the body.
    We have embarked on a major training initiative for our 
inspectors involved in personal search; increased sensitivity 
training, cultural awareness training, and perhaps if that 
training is deemed to be effective, and it is done on a regular 
basis, then maybe we do not need supervisors to be involved in 
that process.
    Right now, I think, at this critical and sensitive time in 
the Customs Service history, I think it is prudent to have 
supervisors involved.
    Senator Feinstein. Wow. I mean, I see that very much 
reducing the pat-downs. I mean, if a supervisor is taking a 
rest break, if he is having lunch, if he is not available, all 
of this is going to stop.
    Let me go on to the next question. What are the results of 
an investigation which was reported underway last year about 
why the names of three U.S. counterdrug agents, including a 
Customs Service agent, were listed in the notebook of a 
suspected Mexican drug trafficker? Also named, according to an 
October 2, 1998, Washington Post story, were an FBI agent and a 
DEA agent. According to the Post, the names were found in a 
raid last June in the home of a suspected trafficker in Cancun, 
as you know, in the State of Quintana Roo, and contain the 
names and phone numbers of 15 elite Mexican anti-drug agents, 
as well as other information relating to the agents.
    Now, the article last October reported that U.S. officials 
said there was no evidence the three were involved in 
corruption, but the appearance of their names in the notebook 
seemed to indicate they were being watched by the traffickers.
    My question is what did the Department of Justice turn up? 
Were U.S. agents linked to involvement with drug traffickers?
    Mr. Kelly. I believe the investigation is still ongoing. I 
will have to get you more specific information. I certainly 
remember the allegations. I do not recall it being closed. So I 
will just have to get back to you, Senator, on that.
    Senator Feinstein. Thank you very much. I would appreciate 
it if you would, and we will follow up with you in writing with 
this.
    Next question. How many corruption investigations are 
underway of Customs and INS personnel assigned to the Southwest 
Border and how does this compare with the number in 1998? If I 
could get that answer from each of you, I would appreciate it.
    Ms. Meissner. I do not have the information with me of how 
many are underway, so we will have to provide it.
    Senator Feinstein. May I ask that you provide that.
    Ms. Meissner. I would be happy to do so.
    Mr. Kelly. Yes, ma'am. I will do the same.
    Senator Feinstein. Thank you very much.
    Senator Sessions. Senator Feinstein, would you extend that 
at several years when they do their response? Because it is a 
question I was----
    Senator Feinstein. All right. How many years would you 
like?
    Senator Sessions. I think 3 or 4 years might be good.
    Senator Feinstein. Perhaps we can track that then for 3 or 
4 years and see what it shows.
    What is being done to lessen the temptation of Customs and 
INS personnel to become involved in corrupt activities? Does 
the policy of allowing Customs inspectors to remain at the same 
duty station for long periods, in many cases their entire 
career, contribute to susceptibility of some to corruption? 
Would it not help if inspectors and other personnel were 
subject to transfers after a specified number of years in one 
location?
    Mr. Kelly. I do not think there is any hard evidence that 
indicates that rotation would be particularly helpful in 
addressing corruption. I think our focus should be on some of 
the things I have mentioned, training, a much-improved internal 
investigative capability, but also quality recruitment and 
quality hires. We now have embarked on national hiring, 
national recruiting and national hiring. No longer are we doing 
local hiring. People are given a choice of duty station, but 
there is no guarantee that they get that choice and all hiring 
is done at the national level rather than, as it has been, on 
the local level.
    Now, I think, in the long-term, that that will be much more 
beneficial in addressing some of these issues, where people may 
get too comfortable in a particular location. I have come from 
a career in law enforcement, and there are certainly two 
schools of thought in that regard as to whether people learn 
their job and learn their community better, and they stay 
there, and thereby provide a better service or you should 
rotate them out regularly.
    Senator Feinstein. Well, you are right, there are two 
schools of thought. I mean, I come from a police department 
that rotates, for a lot of reasons, so that you do not develop 
a lot of contacts that can be difficult as well as productive. 
But I appreciate your answer.
    Commissioner Meissner.
    Ms. Meissner. In our case, what we are concentrating on is 
increasing our advance training. We think that our entry-level 
training--
    Senator Feinstein. So you do not rotate either.
    Ms. Meissner. We do not--we rotate to some extent, but we 
do not rotate as a matter of policy across-the-board for a 
variety of reasons. First, it is extremely expensive. Second, 
we do not have, as Commissioner Kelly says, any evidence that 
it, in fact, improves the situation where corruption is 
concerned.
    We do think that if you focus on enormous amounts of 
training, and we need to do more advance training, your 
supervision has to be very effective, and your techniques for 
managing the ports of entry, as, again, Commissioner Kelly 
mentioned, are extremely critical here. We are now jointly, 
Customs and the INS, working together on port management 
techniques that are much, much more effective, and there is a 
real consensus between the two agencies on how to run these 
ports as an entity that cuts down the possibility of these 
kinds of improper practices.
    There are, in addition to that, intervention strategies 
that you can put into place that are proactive. We now have all 
of our allegations of corruption and cases that are under 
review automated. So we will be in a position where we can 
start to see patterns of complaints brought against employees, 
even if those complaints are not borne out. We are working on 
being able to evaluate certain kinds of complaints if we see 
them over and over again. We are working out systems with our 
managers for identifying those employees and working on any 
range of steps to forestall the possibility that more serious 
problems might develop.
    Those are the major initiatives that we are focusing on at 
the present time.
    Senator Feinstein. Thank you. I would just point out I do 
not know how GAO selected these 28 cases, but 18 of them are 
within the jurisdiction of your Department.
    Ms. Meissner. Are INS cases.
    Senator Feinstein. So, I mean, I think that is--actually, 
19 of them. So I would be concerned about that.
    Now, Commissioner Kelly, my favorite question. Okay Mesa 
spotters, what are you doing about it?
    Mr. Kelly. We have a major initiative in our problem-
solving approach that we use that I would like to perhaps brief 
you off-line on. But I think we are making some headway as far 
as the spotters that you and I saw.
    Senator Feinstein. Excellent. How about tomorrow?
    Mr. Kelly. Yes, ma'am.
    Senator Feinstein. Thank you very much.
    Thanks, Mr. Chairman.
    Senator Grassley. Yes. Before Senator Sessions goes, I 
would like to associate myself--as I did with a question I 
asked the panel about the financial disclosure--with what 
Senator Feinstein said concerning improved background checks. 
For my part, at least for those people who work along the 
border--I do not know whether Senator Feinstein would be 
broader than that--but at least people along the border, I 
support better reporting so that there is a benchmark.
    And I would like to have you consider, you know, it is your 
judgment because you have to enforce the law, but obviously you 
must have the legislative authority to do it, that you do that. 
And if you do not want to do it, tell us, so that we know 
whether or not we need to pursue legislation. Because there is 
no point, if you are thinking that it is legitimate, even 
though you have not done it yet, that it ought to be done, and 
you are going to do it quickly, cause Senator Feinstein, and I 
will help her, to introduce a bill or an amendment to do that 
when you can do it?
    And if you decide you do not want to do it, then just be 
frank with us and tell us that, and you do not need to 
comment----
    Ms. Meissner. I will take a look.
    Senator Grassley. Well, go ahead.
    Ms. Meissner. I will take a look at it.
    Senator Grassley. Would you, Commissioner Kelly, as well?
    Mr. Kelly. Yes, Sir. We use financial disclosure forms now, 
but we will look at it. I think we can use it more.
    Senator Feinstein. Periodically.
    Senator Grassley. Let me check----
    Senator Feinstein. Like every 3 years?
    Mr. Kelly. For the 5-year reinvestigation, but we are way 
behind in our reinvestigations. That is one of the issues. But 
we do use them.
    Senator Feinstein. That is a 421 on financial disclosures?
    Mr. Kelly. Yes.
    Senator Feinstein. A 421 backlog is----
    Mr. Kelly. There is a standard--I am sorry. 421?
    Senator Feinstein. It is not my turn.
    Senator Grassley. I think the point is that maybe, OK, so 
you do it every 5 years. Take a look as if that is often 
enough.
    Mr. Kelly. OK.
    Senator Grassley. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, and thank you 
for this hearing. It is, indeed, very critical that we have our 
best people in these critical assignments that are often in 
areas where they are not supervised. Their honesty is no better 
than their own personal integrity, and most of our agents of 
both of your departments are of highest possible caliber. I 
have no doubt of that.
    And I worked with many of them over the years as a Federal 
prosecutor, and I just have great respect for them. Although I 
must say that in certain circumstances there are great 
temptations and large sums of money. And you are hiring large 
numbers of people, and so the odds are that you are going to 
have some that succumb to the temptation.
    And I do believe that it is essential that you establish a 
very clear commitment to absolute integrity, and discipline. 
And if you say you are going to do reinvestigations, they ought 
to be done on time. If people are required to file financial 
statements, they ought to be required to be file and expected 
to be honest.
    Sometimes I think agencies get lax about that, and it sends 
more of an adverse signal than you might imagine.
    Senator Feinstein asked about the pat-downs. Commissioner 
Kelly, does that apply to border situations, too? Is that your 
policy in both the border and nonborder situations?
    Mr. Kelly. Actually, we focus primarily on airport 
situations. That is where most of our complaints are. But as 
far as pat-downs on the border, we have not directed that to be 
done. It is really our airport ports of entry.
    Senator Sessions. Well, to me, you probably should do more, 
not less. It really frustrates me that departments of 
Government, and I have seen this over the years, change good 
policies because some fear of a lawsuit or some complaint or 
bad newspaper article. I think you have got to ensure that your 
pat-down search policy is objective and fair, but I do not 
think you should allow huge reductions, and I would suggest do 
occur, in productivity if you have to have a supervisor's 
review before you can do a pat-down.
    Mr. Kelly. That is certainly not our intent.
    Senator Sessions. How long do you expect this policy to 
continue?
    Mr. Kelly. Well, at least until we adequately train all of 
the inspectors, particularly those in airport ports of entry.
    Senator Sessions. So how many supervisors are there per 
inspector in these airports?
    Mr. Kelly. It varies from span of control of 1 to 5 to 1 to 
10 or 15, depending on the shift.
    Senator Sessions. When you say ``airport,'' is this at the 
magnetometer or is this at the point of entry?
    Mr. Kelly. Magnetometer is coming into the airport. We are 
talking about people who have arrived in the United States and 
are coming into what we call a secondary area. For whatever 
reason, they have been deemed appropriate for an inspector to 
speak to. They talk to this individual, a certain level of 
suspicion develops, and then they pat down the individual.
    In New York and in Miami, as I say, we give people the 
option of going before this body-scanning device.
    Senator Sessions. Is it a rational thing, in your opinion, 
to consider the country from which they are coming in as to 
whether or not a search is necessary? In other words, if your 
empirical data shows that an extraordinary amount of heroin is 
being carried on the body of persons from Country X, would you 
consider that a legitimate basis to perhaps pat down a larger 
percentage of those people than others?
    Mr. Kelly. Right. That is one factor. We have high-risk 
flights, we have high-risk countries, and they clearly get more 
attention from the Customs Service, no question about that.
    Senator Sessions. So you are able to use those kind of 
rational factors in determining who you pat down.
    Mr. Kelly. Yes, Sir. And we have databases that we run 
people's names against, and we also use the expertise of what 
we call rovers, people who are in the area and make certain 
observations. Inspectors that perhaps may be in civilian 
clothes or in uniform and make certain observations that, based 
on their experience, would require at least speaking to an 
individual.
    Senator Sessions. Sometimes I think we miss the importance 
of apprehending a single drug courier. Under the Federal 
Sentencing Guidelines, oftentimes they are facing large 
sentences, and they will actually confess and tell who they 
were taking the drugs to, and where they got them, and maybe 
this is the hundredth time the person has done that.
    So sometimes people will say, ``Well, this is just a small 
case. It is only six ounces of heroin or a pound of cocaine.'' 
But that is a large amount in itself, No. 1. No. 2, that might 
be the fiftieth time that person has done it. And, No. 3, they 
may be able to give information that could eliminate a whole 
drug organization. So I just really believe that you need to 
continue as aggressive a policy as possible to identify as many 
of these couriers as you can.
    And I think the pat-down policy, I hope that you do not 
allow newspaper articles and lawsuits to intimidate the Agency 
from conducting rational, defensible search policies.
    Mr. Kelly. No, Sir. I think what it does require, though, 
is increased attention on our part. The percentage, the success 
percentage of searches has gone down significantly over the 
years. I think we have to take a look at the factors that we 
use in 1999 and beyond. Are they realistic? Are they helping 
inspectors do their job? And that is what we are doing.
    Senator Sessions. Well, I think you should do that.
    Commissioner Meissner, do you use drug testing at any stage 
of the employment process?
    Ms. Meissner. Absolutely. Drug testing is a requirement for 
all of our entry-level hiring of law enforcement agents, and we 
also do random drug testing with people on the job.
    Senator Sessions. Precisely how is the random drug testing 
done after the hire?
    Ms. Meissner. I would have to give you more detailed 
information as a followup on how we actually do that. One of 
the things that we are working with right now in the random 
drug testing is when a supervisor or someone else suspects that 
random drug testing should be applied to a particular officer, 
and that comes about as a result of closed cases review. That 
is an issue that has surfaced earlier in this hearing and was 
part of GAO's findings, closed cases.
    We have begun to review closed cases for the purposes of 
learning lessons, and one of the things that has come up is in 
the random drug-testing area. We are reworking our guidelines 
on reasonable suspicion by which supervisors might refer people 
for testing once on the job. So it is an active issue.
    Senator Sessions. I would ask you to strongly consider 
this. I remember the captain of an aircraft carrier made a 
speech to a luncheon club, and he said 2 years before--this was 
in the early eighties--60 percent of the members of his crew, 
in his opinion, had used an illegal drug. They had started drug 
testing in the Navy, and he said it was less than 5 percent 
then. There was a massive, a virtual elimination of drugs from 
the military. Many police departments have achieved the same. I 
know Departments of Corrections have had tremendous success 
with drug testing correction officers who are getting drugs in 
the prison.
    What you described to me is not really a random test.
    Ms. Meissner. No, no. I am saying that in addition, in 
addition to random testing.
    Senator Sessions. In addition. So you do some random 
testing. I think that is critical.
    Ms. Meissner. Yes, we do. We absolutely do random testing.
    Senator Sessions. If somebody is using drugs, they are 
compromisable, if not already compromised. They need money to 
buy the drugs with, and maybe they need friendship with drug 
dealers to get drugs, and they have got many things to offer, 
so it is a very----
    What about Customs?
    Mr. Kelly. We do random drug testing as well.
    Senator Sessions. At hiring?
    Mr. Kelly. We do it prehiring, and we do it in-service.
    Senator Sessions. How often would an average employee be 
tested?
    Mr. Kelly. I do not know. I do not know. I will have to get 
back to you, Senator.
    Senator Sessions. Do you know the percentage of positives 
you have gotten on those tests?
    Mr. Kelly. The percentage of positives, once you put out 
the policy that you are doing random testing, it really is a 
significant deterrent. I know that is my experience in the New 
York City police department. So the percentage is low, I know 
that.
    Senator Sessions. I think it does work. And if you care 
about your employees, you do not want them using drugs, and if 
drug testing keeps them intimidated from using drugs, it is a 
win-win for everybody, and I think that is a good way to avoid 
corruption.
    My time is out, Mr. Chairman.
    Senator Grassley. We could not end this hearing at a better 
time because we just had a 15-minute rollcall vote start.
    I thank each of you very much for your kind attention to 
our questions. And I would ask that we have, as I indicated, a 
timely response to questions that will be provided in writing. 
I do not want to embarrass anybody, but one of your agencies 
present at the table took 17 months to respond to three 
questions that I had submitted in writing at the last hearing.
    I thank you all very much, and adjourn the meeting.
    [Whereupon, at 3:43 p.m., the caucus was adjourned.]
                    Additional Questions for Panel I
                            U.S. General Accounting Office,
                                     Washington, DC., May 18, 1999.
Hon. Charles E. Grassley, Chairman,
Caucus on International Narcotics Control,
U.S. Senate, Washington, DC.
    Dear Mr. Chairman: The following are responses to follow up 
questions submitted by you and Senator DeWine based on our report Drug 
Control: INS and Customs Can Do More To Prevent Drug-Related Employee 
Corruption and our recent testimony before the Senate Caucus on 
International Narcotics Control.
    <bullet> Question 1. (Chairman Grassley) I would like some further 
explanation on what may be a discrepancy in this report. On pages 6 and 
7 of the report, you mention that in 1989 and 1992 the National 
Treasury Employees Union (NTEU) challenged the Customs Service about 
their background reinvestigation procedure, including the need for some 
medical, financial, or drug-related information. This litigation was 
serious enough to cause Customs to suspend their reinvestigations. On 
pages 22 and 23 of this same report, the Department of Justice cited, 
to quote the report, ``Customs experience with financial reporting and 
litigation involving the use of the financial disclosure reports'' as a 
reservation for implementing your recommendation that Border Patrol 
agents and immigration inspectors file financial disclosure statements 
as part of their background reinvestigations. Given the earlier 
comment, can you explain why you report that, according to Customs 
officials and the President and Deputy General Counsel of NTEU, 
financial reporting has never been an issue of litigation?
    Response. On pages 6 and 7 of our report, we list some of the 
reasons why Customs experienced a backlog of reinvestigations as of 
March 1998. Part of Customs' explanation addressed a challenge by the 
NTEU of Customs' need for financial and other information from certain 
categories of employees. These included attorneys, advisors, auditors, 
commodity team aids, computer specialists, Customs aids, Customs 
liquidators, import specialists, paralegal specialists, and other 
employees in positions with the same or similar duties and functions. 
The list did not include Customs inspectors and canine enforcement 
officers, who were the focus of our review. The NTEU filed suit and on 
December 1, 1993, a court order required Customs not to question 
employees in the listed positions on their finances, alcohol use, or 
mental health. However, Customs remained unclear on the applicability 
of the court order for at least 1\1/2\ years. Rather than risk 
noncompliance with the court order, Customs did not initiate 
reinvestigations for any positions during this period of uncertainty. 
Customs reported that the legal challenge contributed to the backlog of 
reinvestigations. Our mention of financial data on pages 6 and 7 does 
not specifically relate to a Customs problem in requesting such data 
from Customs inspectors, but helps explain why Customs developed a 
backlog of reinvestigations. As stated on page 23 of our report, both 
Customs and NTEU officials stated that financial reporting by Customs 
inspectors and canine enforcement officers has never been an issue in 
litigation.
    <bullet> Question 2. (Chairman Grassley) One of your 
recommendations is that both Customs and INS work to eliminate a 
driver's choice of lanes at entry ports. Do you have any 
recommendations on how this could be done? As part of your examination, 
did you look at Customs efforts with Operation Brass Ring to do exactly 
this in a number of Southwest Border ports, including Laredo, Tucson, 
Nogales, Sall Luis, and Douglas. Were they effective, or what changes 
would you recommend?
    Response. During our review, we observed port operations in 
Calexico, Douglas, and El Paso. While Customs reported that it was 
experimenting with primary lane denial at selected sites on the 
Southwest Border, we did not observe any efforts to deny drivers their 
choice of inspection lanes. Since primary lane denial was not in 
operation during the time of our port visits, we cannot comment on its 
effectiveness.
    Clearly, we support the idea of not giving drivers their choice of 
inspection lanes at ports of entry and have been told that Customs is 
experimenting with at least two different methods of primary lane 
denial. We believe Customs should implement a program tailored to the 
needs and circumstances of each port.
    <bullet> Question 3. (Chairman Grassley) In their response, Justice 
Office of Inspector General (OIG) states they have provided INS with 
detailed reports of closed investigations in the past, but because of 
personnel restrictions have been unable to provide any recommendations 
based on these reports. In the course of your investigation, did you 
determine what INS did with these reports? From your perspective, how 
is turning over reports on closed cases from OIG different from the 
information the FBI could provide on closed cases, as recommended by 
GAO? Who is in a better position to examine these closed cases to make 
recommendations on identified weaknesses, the investigating office or 
the Agency?
    Response. During our review, we did not see any indication that INS 
was reviewing closed corruption cases investigated by the Justice OIG. 
A procedure whereby OIG provided information on closed cases to INS 
would not appear to be different from our recommendation that the FBI 
provide information on closed cases to INS and Customs. The goal of our 
recommendations is to ensure that closed corruption cases are reviewed 
to identify and correct weaknesses that may be exploited by corrupt 
employees. We believe that the agencies should collaborate to determine 
the most effective way to complete the reviews of closed corruption 
cases.
    <bullet> Question 4. (Senator DeWine) It is disturbing that ``All 
28 of the INS and Customs employees who were convicted for drug-related 
crimes received background investigations that determined they were 
suitable.'' Have you reviewed the special background investigation 
procedures employed by the Central Intelligence Agency and the National 
Security Agency? In your opinion, would these procedures have ferreted 
out these 28 individuals? Does it make sense to incorporate any of the 
CIA/NSA investigative procedures into those of Customs?
    Response. We did not review the background investigation procedures 
employed by the Central Intelligence Agency or the National Security 
Agency. Therefore, we are not in a position to comment on their 
suitability or effectiveness for INS and Customs employees.
    <bullet> Question 5. (Senator DeWine) Is there any evidence that 
Customs employees are being coerced (via threats to individuals or 
family members) into cooperating with drug smugglers?
    Response. While we did not focus on coercion of employees, our 
review of 28 closed cases involving INS and Customs employees convicted 
of drug-related crimes from fiscal year 1992 through 1997 did not find 
evidence of INS or Customs employees being coerced into cooperating 
with drug smugglers. To the contrary, our review of case files showed 
most INS and Customs employees willingly participated in their corrupt 
activities for financial gain.
            Sincerely yours,
                                  Richard M. Stana,
              Associate Director, Administration of Justice Issues.
                   Additional Questions for Panel II
                               The Commissioner of Customs,
                                     Washington, DC, June 25, 1999.
Hon. Charles E. Grassley, Chairman,
Caucus on International Narcotics Control,
U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Thank you for your letter of May 4, 1999, in 
which you provided additional questions from Members of the Caucus as a 
followup to the April 21, 1999, hearing on ``The Continued Threat of 
Corruption to U.S. Border Law Enforcement Agencies.'' Responses to 
those questions are attached.
    As always, I look forward to working with you and the other Members 
of the Narcotics Caucus. If you have any future questions, please do 
not hesitate to contact me.
            Yours truly,
                                          Raymond W. Kelly,
                                                      Commissioner.
                                 ______
                                 

Attachment.--Followup Questions to the April 21, 1999 Hearing on ``The 
     Continued Threat of Corruption to U.S. Border Law Enforcement 
                              Agencies.''

    Question 1. According to the GAO report, Customs agents do not 
receive enough integrity training. Newly hired Customs inspectors are 
required to spend 8 of 440 basic training hours devoted to integrity 
training, and although advanced integrity training is provided to 
reinforce these principles learned in basic training, inspectors are 
not required to take it. In the Assessment report provided by the 
Department of Treasury, the integrity issue is addressed. It too found 
integrity training inadequate and recommended ``the new Office of 
Training, in cooperation with the Federal Law Enforcement Training 
Center (FLETC), increase the number of hours of basic training for 
Customs inspectors/agents . . . Integrity training must become a major 
priority, not only during basic training, but also throughout an 
employee's career.''
    <bullet> Are there plans to require any mandatory integrity 
training for mid-career personnel?
    <bullet> Has any consideration been given to developing a specific 
plan to reintroduce integrity training into an employee's career?
    Answer. Mid-career mandatory integrity training for senior 
inspectors has been a component of the Senior Inspector class for 
several years. In addition, the present curriculum for newly promoted 
managers attending the Customs Supervisory Seminar also includes 
integrity reinforcement training. Mandatory recurrent training required 
by the Office of Government Ethics is annually conducted for agency 
employees whose responsibilities include management and procurement, as 
well as those required to complete annual financial disclosure forms--
approximately 1,200 employees. Also, between 1995 and 1997, 
approximately 6,000 employees were provided with integrity 
reinforcement training in all of our ``Hard Line'' posts of duty along 
the Southwest Border, south Florida, Puerto Rico, and the Caribbean. 
Finally, the Customs Service is reintroducing annual all-hands 
integrity reinforcement training sessions during which a uniform 
curriculum of contemporary concerns and issues will be presented to all 
employees. The curriculum and delivery system are under development for 
deployment this calendar year.
    Question 2. There has been some discussion in recent years about 
establishing a rotation policy for Customs inspectors and agents. What 
kind of consideration has been given to this proposal? What would it 
cost to implement an effective rotation policy? Outside of the cost, 
are there any other detriments to implementing this policy?
    Answer. Customs has considered several proposals concerning the 
rotation of our enforcement personnel. In large part our consideration 
was driven by the premise that such a policy might serve as a deterrent 
to possible corruption by minimizing the potential for full 
assimilation into the local community and provide greater flexibility 
in staffing less desirable locations. However, Customs has identified 
no linkage between the few occurrences of corrupt employees and the 
absence of a mandatory rotation policy.
    A major issue with a mandatory rotation policy is the cost. 
Considering that the current on-board numbers for Customs Inspectors, 
Canine Enforcement Officers, and Special Agents total approximately 
10,500 and relocation costs average $70,000, it would cost the Service 
an additional $183.75 million to rotate a fourth (2,625) of the 
enforcement personnel. A comparable amount would be needed to rotate in 
their replacements, for a total annual cost of about $367.5 million. If 
a 5-year rotation policy were implemented, the additional relocation 
costs would be about $294 million each year.
    Additional detriments to implementing such a policy include:
    <bullet> Possible logistical problems due to insufficient funds or 
slots
    <bullet> Additional costs or requirements as a result of union 
negotiations for bargaining unit positions
    <bullet> Potential adverse impact on employee morale and/or quality 
of life issues
    <bullet> Rotation of employees when it is not in the best interests 
of the Service
    <bullet> Possible external pressure from our trade customers 
because of facility expertise and longer processing times
    A different rotation policy, involving special agent exchanges 
between the Offices of Internal Affairs (IA) and Investigations (OI) is 
considered beneficial and has been implemented. This rotation action 
involves moves between the two offices, but not necessarily relocation. 
The intent of this rotation is to allow IA agents to apply their 
integrity awareness strengths in the enforcement environment, while OI 
agents rotated into IA offices would apply their specific investigative 
knowledge and skills to directly combat corruption. The recent rotation 
between IA and OI involved 93 agents, at a cost of $1.2 million.
    Customs is also looking at other avenues to achieve some of the 
same objectives. Our Quality Recruitment program screens for integrity 
through a multi-hurdle process to enhance Customs ability to hire 
employees whose integrity will not be compromised. The national 
recruitment strategy serves to mitigate local hiring as candidates are 
recruited nationwide and asked to select three preferences for 
placement. Further, many of these location preferences are broad 
geographical areas with several possible duty locations, which would 
help limit local hires. Finally, selection authority for Quality 
Recruitment positions is centralized and reserved to the Assistant 
Commissioner, to improve objectivity.
    Question 3. It seems that a successful method in conducting 
investigations, especially in the area of corruption, is to be pro-
active. In the past, it is my understanding that most internal affairs 
cases have been in reaction to accusations, instead of working pro-
actively to prevent cases.
    Does Customs' policy on conducting Internal Affairs investigations 
reflect a pro-active or a re-active approach?
    Answer. Internal Affairs investigations are both reactive and 
proactive. By the nature of the allegation referral process, Internal 
Affairs must react to allegations received. IA has control over the 
number, nature or frequency of allegations received, and thus must work 
reactively to assess and investigate such allegations.
    Conversely, the 1997 IA Annual Report states ``. . . the vision (of 
IA field offices) is to increase tactical intelligence, source 
recruitment, and source penetrations to conduct significant proactive 
employee integrity investigations of suspect corrupt activity . . .'' 
When applicable, IA utilizes proactive measures as an investigative 
approach of the first choice. Proactive measures, reinforced by 
directive, training, and field practice, recognize that source 
penetrations, undercover operations, and electronic surveillances are 
invaluable evidence-gathering techniques in the covert stage of an 
employee corruption investigation. Federal prosecutors universally 
endorse such techniques, Federal law enforcement agencies in joint 
anticorruption task forces employ these techniques, and IA has 
successfully used these techniques in many proactive undercover 
operations, including a 1997 undercover investigation of a group of 
three Customs Inspectors and three local South Florida police officers.
    In 1997, IA initiated Operation FIDELITY. This initiative was 
designed to provide policy and procedural guidance regarding the 
conduct of IA proactive investigations. FIDELITY was the vehicle to 
create opportunities to assess the integrity level of employees 
suspected of job related misconduct. Several proactive FIDELITY 
operations are currently in progress and program effectiveness is 
strengthened by the requirement for prosecutorial and Headquarters 
approval. The success of the program is reflected in the authorization 
to hire designated FIDELITY agents for each of our major IA field 
offices.
    Following the proactive mandate, IA has modernized our inventory of 
special purpose, electronically equipped surveillance vehicles. IA 
hired both Physical Security Specialists and Investigative Intelligence 
Specialists in each of our major field offices in support of proactive 
initiatives. We are creating a Special Investigations Unit in 
Headquarters to work on the most complex internal investigations, 
including proactive cases. We have initiated these actions because we 
know that corruption must be ferreted out, not waited out. We know the 
keys to success in this area are initiative, resources, and commitment. 
We believe that the policy and the architecture is now in place for IA 
to build upon the successful proactive initiatives of the recent past.
    Question 4. During the April 21 hearing, Commissioner Kelly 
testified that Customs requires the disclosure of financial information 
as part of the preemployment background investigation and the in-
service reinvestigation of its law enforcement personnel.
    Has the use for financial information as part of the background 
investigative process been useful to Customs in identifying employees 
who may be susceptible to, or actively involved in, acts of corruption? 
Has the collection of this information adversely impacted the Customs 
background investigation process? Has personal financial information 
been collected and utilized consistently to establish a baseline 
against which a suspect Customs employee's unexplained wealth may be 
compared?
    Answer. Both the financial information provided by the subject and 
the credit checks completed by the Agency are useful in identifying 
individuals who may be potentially susceptible to corruption. We have 
not had instances whereby the financial information has identified 
employees who are actively involved in acts of corruption.
    The collection of background information has not adversely impacted 
the background investigation process. The collection/adjudication of 
this information is required pursuant to investigative requirements for 
employment/continued employment with Customs.
    Personal financial information which is collected on all new 
employees and during periodic reinvestigations is currently being 
analyzed on a limited basis to determine whether employees are living 
beyond their means and whether their net worth falls above or below the 
norm for other employees in similar situations.
    Question 5. Does Customs utilize polygraph examinations as part of 
the pre-employment and in-service background investigation process? If 
not, is the use of polygraph examinations in the pre-employment or in-
service background investigation process being considered? Under what 
circumstances are polygraph examinations utilized at Customs? Are the 
results of these examinations considered generally reliable?
    Answer. Customs does not currently utilize polygraph examinations 
during the pre-employment or in-service background investigation 
process.
    However, on March 19, 1999, the Assistant Secretary for Management 
and Chief Financial Officer, Treasury Department, forwarded a request 
to the Office of Personnel Management (OPM) asking that the 
Department's authority with respect to polygraphs be expanded to permit 
Customs to use polygraphs to screen competitive service applicants for 
Criminal Investigator positions in the 1811 series. We anticipate OPM's 
approval in the near future.
    For over 20 years, Customs has utilized polygraph examinations as 
an investigative tool to gather evidence in internal administrative 
and/or security matters and criminal investigations. For example, the 
polygraph technique has been used in cases where employees faced 
allegations of sexual/racial harassment or making false statements 
under oath. Polygraph examinations are used more frequently in criminal 
investigations as an investigative tool to gather evidence regarding 
the guilt or innocence of a subject in conjunction with all other 
available information.
    Research studies published in ``Polygraph'' professional journal 
indicate high reliability (consistency) and validity (accuracy in 
detecting deception and identifying truthful subjects). However, 
results of individual polygraph examinations depend heavily upon the 
skill level of the person administering the exam.
    Question 6. Customs has established anti-corruption initiatives 
that include training or issues related to sexual harassment, cultural 
diversity and sensitivity, and integrity. What validation measures have 
been established to ensure that the anti-corruption efforts at Customs 
are effective in achieving the desired goals and objectives?
    Answer. Self-inspection initiatives have begun within the 
Management Inspection Division, which will be a primary vehicle in 
validating the effectiveness of training received in such areas as 
sexual harassment and cultural diversity. This concept ties in to 
quality recruitment initiatives along with continued in-service 
integrity training throughout the career of an employee. Furthermore, 
the Internal Affairs Training Staff is currently researching 
anticorruption validation standards for field implementation. With 
regard to testing at the Customs Academy, of those employees attending 
the programs at the Academy, only the special agents attending the 
Customs Basic Enforcement School are formally tested on ethics issues 
in the Customs Service via a written exam. Initiatives are also 
underway to include test questions in examinations taken by students 
represented by the National Treasury Employees Union (NTEU), with NTEU 
concurrence.
    Question 7. Despite numerous complaints from Customs personnel 
regarding gross sexual harassment and official misconduct at the Port 
of Tampa, Customs failed to take action addressing the complaints for 
14 months. During this 14-month period, as the Customs internal 
investigation continued, acts of sexual harassment and official 
misconduct continued to occur.
    In cases where Customs personnel make official complaints alleging 
on-the job sexual harassment and official misconduct, do you believe a 
14-month delay in investigating complaints of sexual harassment and 
official misconduct is appropriate? Now that the Customs investigation 
regarding sexual harassment and mismanagement at the Port of Tampa has 
been completed, will you make the documents compiled as part of the 
investigative record available to Committee staff?
    Answer. In 1997, there was one allegation of sexual harassment at 
the Port of Tampa. An investigation was opened by the Office of 
Internal Affairs on the Chief Inspector.
    A specialized IA investigative team was dispatched, the Tampa CMC 
Director was notified, and a Cease and Desist order was issued to the 
Chief Inspector to ensure there was no continuing misconduct. IA took 
20 statements from developed complainants and reluctant witnesses 
(employees and former employees) over a 10-month period (October-
August). Additional investigations were initiated during this timeframe 
regarding racial statements by the Port Director and allegations of 
failure to take action by the Port Directors' supervisor, in addition 
to alleged retaliation against those who were supporting the 
allegations of misconduct. Although not typical, the complexity of this 
particular case necessitated the time required to complete the 
investigation.
    The sexual harassment allegations were ultimately substantiated 
against the Chief Inspector, and disciplinary action was taken (Removal 
from the Chief Inspector management position; downgrade from a GS-13 to 
a GS-12). The Area Port Director was found not to have engaged in 
retaliation. The allegations that the Area Port Director failed to take 
appropriate action when informed of the misconduct is being addressed 
with additional interviews being conducted at this time.
    Question 8a. A February 1999 report prepared by the Office of 
Professional Responsibility (OPR) indicates current Customs integrity 
training is inadequate for deterring corruption. Customs special agents 
and inspectors receive training regarding sexual harassment and 
diversity, ethical conduct, and equal employment opportunity during 
their initial training at the Federal Law Enforcement Training Center 
and Customs Academy; however, there are no specific courses 
specifically designed as ``anti-corruption'' training. In light of this 
finding, what actions are being taken to develop a course of 
instruction for Customs personnel specifically designed to address 
anti-corruption issues?
    Answer. In addition to ethics, sexual harassment, and diversity 
training conducted by the FLETC staff, the Internal Affairs training 
staff assigned to the Customs Academy presents a course entitled 
``Corruption Prevention.'' The course presentations include: ethical 
concepts and values; recognition of the ethical dilemmas faced on the 
job, at home, and in their lives; decision-making tools for ethical 
challenges; recognizing the statutory basis for and application of the 
U.S. Customs Service Code of Conduct as delineated in the Government-
wide Standards of Ethical Conduct for Employees of the Executive 
Branch, the Supplemental standards of Ethical Conduct for Employees of 
the Treasury Department, and other laws and regulations; recognizing 
the authority and functions of the Office of Internal Affairs (IA); 
recognizing the elements of a bribe offer and how to respond to and 
report such an offer to IA and the employee's role in any ensuing 
bribery investigation; and an in-depth discussion of the personal and 
professional consequences of misplaced loyalty, peer pressure, and 
``entitlement'' rationalizations. This training includes real case 
scenarios and ethical decision making exercises.
    Question 8b. The OPR report also indicates the hours of integrity 
training delivered to Customs law enforcement personnel are 
significantly less than the hours of integrity training provided to law 
enforcement personnel of the Drug Enforcement Administration and the 
New York City Police Department. What actions are underway to increase 
the number of hours of anti-corruption and integrity training delivered 
to Customs personnel?
    Answer. The Office of Internal Affairs training staff is aware of 
and continually reviews and compares its programs with our law 
enforcement agency counterparts. The following summarizes the present 
state of instruction:
    DEA.--DEA has recently reduced the integrity reinforcement 
instructional time they dedicate to special agents from 25 to 20 hours. 
Of these, 10 hours are dedicated to ``ethics'' training. The remainder 
is dedicated to their Standards of Conduct and an introduction to the 
role of OPR.
    ATF.--The Bureau of Alcohol, Tobacco and Firearms does not dedicate 
any formal instruction time to the subjects of ethics and integrity 
training at their Academy. New hires receive a two-hour block given to 
all new hires prior to reporting.
    Secret Service.--The Secret Service conducts 8 hours of ethics 
training in its basic training program.
    IRS.--The Internal Revenue Service intermingles ethics training 
with other courses. It has no stand-alone curriculum in this area.
    Border Patrol.--The Border Patrol dedicates 3 hours to ``Officer 
Integrity'' and 1 hour to an overview of the Department of Justice OIG.
    FBI.--The IA Training Staff has conducted multiple interviews with 
FBI Academy personnel responsible for developing their integrity 
curriculum. Their special agents currently receive 16 hours of 
integrity training in a curriculum which very nearly mirrors what 
Customs accomplishes in 8 hours. They also add course content in the 
ethical basis of the Constitution and ethics standards for officers 
with judicial responsibilities.
    The FBI course also includes theoretical academic treatment of the 
Declaration of Independence, the Preamble to the Constitution, the 
Origins of Modern Republics, and the Origins of the U.S. Constitution, 
Human Equality, Life and Liberty, Ideal Utilitarianism, and the 
philosophical teachings of Emanuel Kant and John Locke.
    All Customs personnel (special agents, pilots, AIO's, seized 
property custodians, auditors and inspectors) currently receive 8 hours 
of corruption-prevention training (ethics and integrity reinforcement). 
In addition to this training provided by IA, Customs special agents 
receive an additional 7 hours from the FLETC staff in subjects 
including integrity, cultural diversity, EEO, civil rights, and 
constitutional law-subjects which mirror the additional formal time 
dedicated to this area at the FBI Academy. In comparison, the time 
dedicated to formal ethics training of special agents at the Customs 
Academy is very nearly the same as that given to FBI special agents.
    Treasury OPR cited the IACP Ad Hoc Committee on Police Image and 
Ethics, which concluded that law enforcement organizations do not spend 
enough time on integrity training (70.5 percent reported they provide 4 
hours or less of integrity training and 16.8 percent of respondents 
indicated they provide 8 hours of integrity/ethics training). While it 
is possible, although unverified, that Customs might profit by adding 
more anticorruption training, the 8 hours received in the Customs 
special agent curriculum, combined with the seven taught by the FLETC 
instructional cadre, places the Customs Service well above the top 
police departments in the Nation in training time expended on ethics 
training.
    The Office of Internal Affairs is entering into a training 
agreement with the New York City Police Department on corruption 
investigation techniques and methods. This cross training effort will 
support the investigative effectiveness of IA.
    Further review of all Customs training initiatives, course 
curricula, and methods of instruction will be reviewed and assessed by 
the newly appointed Assistant Commissioner for Training and 
Development.
    Question 9. During our May 14, 1997 hearing, questions were raised 
regarding the exclusive use of Customs Internal Affairs personnel to 
deliver integrity training. During September 1997, then-Acting 
Commissioner Banks said that Customs, as part of Operation Hard Line, 
had developed a team approach to the delivery of ethics and integrity 
training, utilizing Customs instructors from offices other than 
Internal Affairs.
    In the effective delivery of ethics and integrity training, the 
instructor's personal credibility is a critical factor. If a Customs 
instructor has a reputation among the students as having had his or her 
own ethical lapses or concerns, the desired effect of the training may 
be doomed from the start. In light of this concern, has Customs 
considered utilizing qualified instructors from the private sector or 
other Federal, state or local law enforcement agencies to develop its 
anticorruption and integrity program and to deliver the related 
training?
    Answer. Customs provides employees with integrity training 
throughout their careers. All new employees in inspector, entry, import 
specialist and agent positions receive an 8-hour lesson on ethics and 
integrity as part of their mandatory basic training program. New 
supervisors receive an 8-hour lesson which includes ethics, integrity 
and the application of these principles to their jobs and employees. 
Additionally, other employees have received refresher integrity 
training (e.g., 3,600 inspectors and agents, mostly on the Southwest 
Border, as part of Operation Hardline). The newly appointed Assistant 
Commissioner for Training and Development will also work to integrate 
integrity training across the Service and into employees' career path 
training.
    Currently, the Customs Service is actively exploring a team 
approach to developing and deploying recurrent integrity reinforcement 
training in the field. IA contributes expert assistance in the areas 
which appear to be most challenging to employee integrity, as well as 
corporate knowledge of the best available means for defeating threats 
to the Service's integrity. However, integrity is by no means the 
exclusive province or responsibility of the Office of Internal Affairs. 
Integrity is a critical value to all employees.
    Customs has supplemented the delivery of training by employing 
well-known consultants to deliver components of our ethics and 
integrity training. Currently, the consulting firm of Gilmartin, Harris 
& Associates, recognized experts in the anticorruption and integrity 
field, is delivering a component of the ethics and integrity training 
to all new supervisors in the Customs Supervisory Seminar. This team 
has also been hired by many Customs field offices throughout the Agency 
to facilitate similar refresher training.
    In addition, training provided through the Customs Training Academy 
is delivered by a highly credible cadre of instructors: some resident 
at the Academy; others experienced Service supervisors, who have been 
nominated by their Assistant Commissioners; and other subject matter 
experts.
    Question 10a. It is disturbing that ``all 28 of the INS and Customs 
employees who were convicted for drug-related crimes received 
background investigations or re-investigations that determined they 
were suitable.'' Have you reviewed the special background investigation 
procedures employed by the Central Intelligence Agency (CIA) and the 
National Security Agency (NSA)?
    Answer. The special background investigation procedures employed by 
the CIA and NSA are contained in Executive Order 12968, Access to 
Classified Information. With the exception of pre-employment polygraph 
examinations, the Customs Service complies with the investigative 
standards contained in E.O. 12968 for all positions that are designated 
National Security (e.g., Special Agents, Pilots, etc.).
    Question 10b. In your opinion, would these procedures have ferreted 
out these 28 individuals?
    Answer. In that the Agency conducts more than the OPM minimum 
investigative coverage, perhaps the polygraph tool itself may have 
uncovered deception on the part of these individuals.
    Question 10c. Does it make sense to incorporate any of the CIA/NSA 
investigative procedures into those of Customs?
    Answer. Yes, polygraphs. Customs follows the same procedures as the 
CIA and the NSA, contained in Executive Order 12968, with the exception 
of preemployment polygraph examinations.
    Question 11. Is there any evidence that Customs employees are being 
coerced (via threats to individuals or family members) into cooperating 
with drug smugglers?
    Answer. The Security Management Branch, Internal Affairs, is not 
aware of any evidence that a Customs employee was successfully coerced 
(via threats to individuals or family members) into cooperating with 
drug smugglers. The Security Management Branch could identify two 
instances where a Customs employee was threatened in an attempt to 
coerce the employee to cooperate, but the attempted coercion was 
apparently unsuccessful.
    In one instance, an inmate at the Arizona Department of Corrections 
sent threatening letters to a Customs Inspector in an effort to obtain 
an early release from prison. The Inspector previously encountered the 
subject after he (the subject) was arrested for attempting to smuggle 
33 pounds of marijuana into the United States. The Inspector acted as 
an interpreter for the Spanish speaking subject during an interview 
with an English speaking Customs Special Agent. After the receipt of 
threatening letters by the Inspector, the inmate was interviewed by 
Special Agents from Customs Office of Internal Affairs and Office of 
Investigations. The attempted coercion was stifled.
    The second coercion attempt involved a threat to a Customs 
employee's life, and actually occurred in Mexico. After a Customs 
Inspector escorted his fiancee to a family gathering of hers (the 
fiancee's) in Mexico, the Inspector was introduced to a Spanish male 
that told him ``I know you.'' According to the Inspector, later that 
day he accompanied the individual to the store. During that trip, the 
individual pulled the vehicle he was driving to the side of the road, 
and they were joined by four other individuals (the Inspector believed 
that they were armed). The subject told the Inspector that ``the 
organization he worked for paid $10,000 per car load of cocaine,'' and 
if the Inspector did not cooperate, the organization knew how to get 
hold of him, and he ``knew what to expect.'' The Inspector was 
temporarily relocated by the Customs Service.
    Question 12. Please provide a thorough description of your drug 
testing procedures, including but not limited to your random testing 
program. How often are random drug tests conducted? What is the 
percentage of positive tests over the past few years? What is the 
procedure for an employee who tests positive?
    Answer. Employees who occupy ``testing designated positions'' are 
subject to random drug testing. The criteria for position coverage are:
    <bullet> authorization to carry a firearm;
    <bullet> direct involvement with drug interdiction and enforcement 
of related laws;
    <bullet> activities/duties affecting public health or safety;
    <bullet> access to classified information;
    <bullet> access to enforcement systems and the Cargo Selectivity 
module of the Automated Commercial System (ACS);
    <bullet> Presidential appointees.
    Currently, 18,586 employees (91 percent of the Customs workforce) 
meet the criteria for random drug testing. Approximately 10 percent of 
the employees who occupy ``testing designated positions'' are tested 
each year.
    The random drug testing program is operated at Headquarters. It is 
unannounced and employees are given no more than 2 hours to report to 
the collection site. The majority (over 99 percent) of random drug 
tests are conducted at the Customs work site.
    A computer program makes random drug testing selections. Employees 
have approximately a 1 percent chance of being selected for testing 
each month. Since employees are selected randomly for testing, actual 
frequency is not based on a regular, predictable schedule. Our goal is 
to test 10 percent of the employees subject to random testing each 
year. On average, we conduct random tests at 2-3 locations per month.
    The random drug testing program appears to be a deterrent. Since 
the beginning of fiscal year 1995, we have had a total of only 44 
employees test positive for illegal drugs. Forty two of these 44 were 
identified via random drug testing. The percentage who tested positive 
compared to all who were tested is 0.54 percent.
    Customs contracts for specimen collection and analysis. The testing 
laboratory is certified by the Department of Health and Human Services 
(HHS). Employees are tested for: marijuana, cocaine, amphetamines, 
phencyclidine (PCP), and opiates. Test results are sent to a Medical 
Review Officer (contracted licensed physician) for review prior to 
reporting the results to Customs.
    In addition to random drug testing, Customs drug testing program 
includes the following types of testing:
    <bullet> pre-employment;
    <bullet> reasonable suspicion;
    <bullet> injury, illness, unsafe or unhealthful practice;
    <bullet> follow up;
    <bullet> voluntary.
    If an employee tests positive for drugs, the specimen is retested 
by sending a portion to an independent laboratory (certified by HHS) 
for reconfirmation. Meanwhile, Human Resources Management (HRM) is 
notified of a positive test result. HRM notifies the employee's 
manager, Internal Affairs (IA), and Labor and Employee Relations (LER). 
The employee is either assigned to administrative duties or placed on 
administrative leave. Authority to carry firearms is suspended, and 
government issued weapons are retrieved by the supervisor or IA. Access 
to sensitive automated systems is suspended. The security clearance is 
suspended.
    The Customs Service does not tolerate drug use. Generally, 
employees testing positively for drug use are removed from the Service. 
Of course, all actions are based on the circumstances of the case and 
taken in accordance with laws and regulations.
    Question 13a. Please provide a complete description and/or update 
of your procedures for physical searches of individuals.
    Answer. Customs inspectors at commercial airports can select 
passengers for an enforcement exam either in advance, or on-the-spot.
    Advance targeting is accomplished by the passenger analysis unit 
(PAU) using Advance Passenger Information (API) and other data. An 
electronic lookout is placed in the Interagency Border Inspection 
System (IBIS), which is used by the INS inspector in the primary 
inspection process.
    On-the-spot referrals can come from a rover or control point 
inspector, or from a canine alert.
    The rover will initially identify passengers who may appear 
suspicious, based on a number of factors, such as suspicious activity 
(avoiding canines or scoping out inspectors).
    Once an initial contact is made with the passenger, the rover or 
control point inspector will use a brief interview, review of travel 
documents, and observation of nonverbal cues to make a determination as 
to whether a secondary exam is warranted.
    In the secondary inspection process, an inspector will follow-up 
with a more in-depth interview, review of travel documents, and 
observation of nonverbal cues. The passenger can then be released or 
detained for a baggage exam.
    The baggage exam may alleviate suspicions or add factors that may 
lead to a personal search.
    Courts have held that the ``routine'' Customs exam includes a 
patdown personal search. No suspicion is needed up to this point, 
merely nexus with the border. Customs policy requires that some or mere 
suspicion is needed for the patdown (one or more factors).
    The personal search progresses from the least intrusive to the most 
intrusive, based on suspicion factors developed during the entire 
secondary inspection process. Each increase in intrusiveness, however, 
requires additional suspicion factors.
    The hierarchy of personal searches is: (1) putdown, (2) partial 
strip, (3) x-ray, (4) body cavity, and (5) monitored bowel movement 
(MBM).
    Current policy requires supervisory approval for any personal 
search beyond the patdown. A patdown precedes all other personal 
searches.
    Once a patdown is conducted, additional suspicion factors may 
warrant a partial strip search, such as something suspicious felt 
beneath the clothing. Only the suspicious area of the body may be 
subject to a partial strip and not the entire body (per court ruling).
    The partial strip may result in additional factors that may warrant 
a body cavity search (such as an object protruding from vaginal 
cavity). Initial suspicion factors may also indicate an x-ray and/or 
MBM is warranted (such as items found in luggage, etc.)
    Customs uses consent as a basis for a body cavity or x-ray search, 
and all women undergo a pregnancy test before an x-ray. If consent is 
not provided, Customs can require an involuntary body cavity search 
(removing object from the vaginal cavity) or will move to an MBM for a 
suspected swallower of narcotics. (However, the Ninth Circuit on the 
West Coast requires a court order for involuntary searches.)
    An MBM will require enough ``clear, complete'' bowel movements to 
ensure that the alimentary canal does not contain contraband. Use of 
emetics or laxatives (i.e., ``Go Lately'') is only at the direction of 
a doctor and is administered by medical staff, not Customs inspectors.
    Customs is in the process of revising its personal search policy to 
add additional supervisory approval requirements, to add management 
oversight responsibilities, and to ensure that the policy is written in 
straightforward language that will prevent misinterpretation. The 
revised policy, which will be out shortly, provides for notification of 
an individual of the subject's choosing if the search takes more than 2 
hours.
    Question 13b. Could you provide an update on the litigation that 
has arisen as a result of incidents in Chicago?
    Answer. In the Northern District of Illinois, Anderson v. Cornejo, 
Case No. 97 C 7556 is a potential class action lawsuit brought by 46 
African-American women against a number of named and unnamed Customs 
and Immigration ``agents, inspectors and supervisors.'' The complaint 
is based on the patdown searches, strip searches, or body cavity 
searches of the plaintiffs. Besides the Fourth Amendment claim based on 
the allegedly unreasonable searches, the complaint also contains Equal 
Protection, due process, and ``privacy'' claims (this last based on 
maintaining in Customs files the incident reports regarding the 
searches of plaintiffs.)
    The government filed a motion to dismiss and for a more definite 
statement in November 1998; in January, the judge dismissed the privacy 
claim and the procedural due process claim; denied class certification 
(without prejudice); and granted the motion for a more definite 
statement. At last count the most recent Complaint, the Fourth Amended 
Complaint, listed 46 plaintiffs, two of which have since been dismissed 
as untimely.
    Question 13c. Please explain how consulting with a supervisor will 
delay and/or discourage this practice [personal searches].
    Answer. A patdown precedes all other personal searches. Current 
national policy requires supervisory approval for any personal search 
beyond the patdown. Port directors may require that the patdown also be 
approved by a supervisor. A future change to Customs policy will 
require that all personal searches be approved by a supervisor.
    Supervisors are on-site or immediately available nearby at most 
Customs facilities. Contact can usually be made by radio and/or 
telephone for supervisors not actually onsite. Any delay in the search 
procedure, to contact a supervisor, will be minimal.
    A supervisor's review and approval allows for a more experienced, 
third party evaluation of the circumstances surrounding the enforcement 
exam and need for a personal search. The supervisor is responsible for 
ensuring that current policy is being followed and that enough 
suspicion exists to believe that contraband may be hidden on or in the 
body of the passenger.
    The supervisor is also responsible for follow-up with the passenger 
and inspector after the completion of any personal search that does not 
lead to an arrest and/or seizure. The supervisor addresses the 
questions of the passenger, and assists them to continue their travels. 
The supervisor reviews the enforcement actions with the inspector to 
ensure that each event becomes a learning experience.
    Question 13d. What is the timeframe for widespread deployment of 
the nonintrusive search systems (new x-ray type mechanisms)?
    Answer. Customs has purchased two body scan imaging systems and has 
had them in operation at JFK and Miami Airports since February 1999.
    During the last quarter of Fiscal Year 1999, Customs expects to 
purchase 3-4 additional systems and deploy them to Chicago, Atlanta, 
and Los Angeles.
    During Fiscal Year 2000, Customs will establish a procurement 
vehicle to obtain additional systems for deployment to major airports 
such as San Francisco, JFK (additional terminals), Miami (additional 
terminals), Los Angeles (additional terminals), Washington Dulles, San 
Juan, and Newark.
    By the end of Fiscal Year 2000, Customs plans to have established 
body scan imaging systems at the top 15 major United States airports.
    Question 14. What are the results of an investigation which was 
reported underway last year about why the names of three U.S. counter 
drug agents, including a Customs Service agent, were listed in the 
notebook of a suspected Mexican drug trafficker? What did the 
Department of Justice turn up? Were U.S. agents linked to involvement 
with drug traffickers?
    Answer. The Washington Post printed an article alleging that the 
names and phone numbers of three U.S. drug agents had been found in the 
notebook of a Mexican narcotics smuggler. One of the agents listed in 
the book was the former Senior Customs Representative in Merida, 
Mexico. Follow-up interviews with the Mexican authorities who had 
seized the notebook determined that no other evidence existed 
indicating the three agents were involved in corrupt activities, and 
the authorities had not uncovered any information that would 
corroborate allegations of corruption. Due to the lack of additional 
substantiating information, no evidence exists linking the three named 
agents to involvement with drug traffickers.
    Question 15. How many corruption investigations are underway of 
Customs personnel assigned to the Southwest Border, and how does this 
compare to the numbers in 1998 and the last 4 years?
    Answer.

                Corruption Cases on the Southwest Border
------------------------------------------------------------------------
                                                                   Total
                                FY                                 cases
------------------------------------------------------------------------
1996.............................................................    60
1997.............................................................    63
1998.............................................................    63
1999*............................................................    35
------------------------------------------------------------------------
* Number of cases based on six-month data

    Question 16. What is your opinion on having legislation drafted 
that would require agents to file financial disclosure statements every 
3-5 years.
    Answer. Provisions contained in E.O. 12968 permit agencies to 
initiate reinvestigations (which include financial reviews) at any time 
following their last investigation. Customs conducts reinvestigations 
of its agents every 5 years. Legislation should be drafted to require 
all public trust positions that are considered to be law enforcement 
(Customs Inspectors, Canine Enforcement Officers, etc.) to file 
financial disclosure statements.

                                 ______
                                 
                        U.S. Department of Justice,
                             Office of Legislative Affairs,
                                     Washington, DC, July 28, 1999.
Hon. Charles E. Grassley, Chairman,
Caucus on International Narcotics Control,
U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are responses to questions you posed to 
Commissioner Meissner of the Immigration and Naturalization Service 
following her appearance before your Caucus on April 21, 1999. We 
regret the delay in responding.
    We hope that this information is useful to you. Please do not 
hesitate to call upon us if we may be of additional assistance in 
connection with this or any other matter.
            Sincerely,
                                   Jon P. Jennings,
                                 Acting Assistant Attorney General.

                                 ______
                                 
                Questions from Senator Charles Grassley
    Question 1a. Recently the Office of Special Counsel urged the 
reinstatement of a veteran Immigration and Naturalization Service agent 
who was considered a whistle blower. Anytime a whistle blower is 
retaliated against by an agency, I think that it creates an atmosphere 
that may inhibit others from speaking out. I would like your comments 
on the case.
    Do you have any plans for dealing with this particular case?
    Answer. INS initiated discipline against that particular employee. 
INS expects that supervisors will give careful deliberation in all 
discipline cases, but particularly where the employee claims or might 
be described as a whistleblower. I insist that INS managers ensure that 
such discipline is warranted without regard to the whistleblower 
status, exactly as the law provides. In this case, the INS determined 
that even if the employee is a whistleblower, the acts of misconduct he 
committed merited discipline.
    Question 1b. What policies does the INS have in place to protect or 
encourage other employees to speak out when they believe there is 
mismanagement or corruption within INS?
    Answer. INS has in place, in Operating Instruction 287.10, a formal 
reporting requirement for even minor instances of wrongdoing. This 
procedure is intended to bring independent and timely investigation to 
bear on reported wrongdoing.
    Question 1c. What guidance does INS have established for how to 
deal with whistle blowers?
    Answer. We are committed to follow that law and regulations in 
Title 5 of the Code of Federal Regulations. In short, we are not to, 
and do not, influence action affecting such an employee.
    Question 1d. What are the incentives in INS for whistle blowers?
    Answer. We do encourage the reporting of waste, fraud, and abuse. 
It is the employee's choice whether to make that report to INS under 
O.I. 287.10 or to the Office of Special Counsel under Title 5 of the 
U.S. Code.
    Question 2. What is INS doing to eliminate backlogs in background 
checks? What is being done to prevent future backlogs?
    Answer. For current employees, the INS complies with the U.S. 
Office of Personnel Management (OPM) and Department of Justice (DOJ) 
policies requiring employment reinvestigations to be completed every 5 
years. Prior to Fiscal Year (FY) 1992, INS had a backlog of overdue 
background reinvestigations. INS began a concerted effort to address 
this problem in fiscal year 1992. At the end of fiscal year 1997, INS 
achieved currency in requesting overdue reinvestigations. By the end of 
fiscal year 1997, INS had requested background investigations on all 
INS employees who were due or overdue for a reinvestigation. INS has 
provided sufficient funding for the reinvestigation program. In June 
1998, INS implemented a plan to eliminate the backlog in adjudication 
of background investigations. The backlog was eliminated in March 1999 
and the case inventory is current. INS will ensure that funding is 
allocated to remain current in the background investigation and 
reinvestigation programs.
    Question 3. How does INS intend to ensure the quality of background 
checks in an environment in which there is pressure to hire a lot of 
new people quickly, while trying to expedite the clearance of the 
backlog?
    Answer. INS acquires its background investigations and 
reinvestigations from OPM, which has Government-wide responsibility for 
conducting these investigations on applicants and employees in the 
competitive civil service. INS has implemented requirements for initial 
background investigations and reinvestigations that exceed OPM and DOJ 
requirements for INS Officer Corps positions. Specifically, INS 
requires its Officers, such as Border Patrol Agents and Immigration 
Inspectors to undergo a Single Scope Background Investigation (SSBI) at 
the time of hire. The SSBI is the most comprehensive background 
investigation OPM conducts. It exceeds OPM and DOJ requirements for 
these positions. In addition, INS requests expanded background 
reinvestigations that also exceed OPM and DOJ requirements for these 
positions. The INS operates its personnel security program under 
delegated authority from the DOJ, and is subject to periodic reviews 
and evaluation by the DOJ, as well as OPM and other outside agencies, 
including GAO.
                                 ______
                                 
                   Questions from Senator Bob Graham
    During the April 21, 1999 Drug Caucus hearing, Commissioner Kelly 
testified that Customs requires the disclosure of financial information 
as part of the pre-employment background investigation and the in-
service re-investigation process of its law enforcement personnel. 
Commissioner Meissner testified that financial disclosures are not 
utilized in background investigations at INS.
    Question 1. How can INS justify the omission of this important 
information from their pre-employment and in service background 
investigation processes?
    Answer. The INS obtains considerable financial information on its 
applicants and employees during initial background investigations and 
reinvestigations, and requires resolution of financial issues raised in 
the course of background investigations. The INS does not believe that 
implementing a separate financial reporting system will achieve the 
perceived benefits.
    It is highly unlikely that individuals engaged in corrupt 
activities would disclose their illegally obtained assets by responding 
truthfully to a financial disclosure form, thereby subjecting 
themselves to agency scrutiny and possible detection of their criminal 
conduct. During the course of the GAO review, the INS was not 
presented, nor did it discover, any empirical data or evidence showing 
that completion and review of a financial disclosure report deters 
corruption. Since the early 1970s, the U.S. Customs (USCS) has required 
its employees to complete a financial disclosure report. The USCS has 
used assets and liabilities information provided on the form to support 
employment decisions based on falsification of the form, but it has no 
evidence that the financial disclosure has deterred corruption.
    Question 2. Does the INS utilize polygraph examinations as part of 
the pre-employment and in-service background investigation process? If 
not, are the use of polygraph examinations in the pre-employment or in-
service background investigation process being considered? Under what 
circumstances are polygraph examinations utilized at INS? Are the 
results of these examinations considered generally reliable?
    Answer. The INS does not utilize polygraph examinations as part of 
the pre-employment and in-service background investigation process at 
the present time. INS would have to get authority from OPM to use 
polygraph testing based on the fact that the Border Patrol and 
Immigration Inspectors jobs are competitive service positions governed 
by OPM regulations on competitive service appointments. In addition, 
INS would have to be designated an agency with ``highly sensitive 
intelligence or counterintelligence mission directly affecting the 
national security.'' Both CIA and FBI are ``excepted'' service agencies 
and have been designated as agencies with highly sensitive intelligence 
and counterintelligence missions. INS has made a determination not to 
use polygraph examinations in the pre-employment or in-service 
background investigation process.
    The hiring process applies the ``whole person'' aspect of the 
individual and helps to screen out potential problem applicants very 
early in the process. This process includes drug testing, aptitude 
testing (ability to learn the job), applicant assessment (identify 
potential for counterproductive behavior), structured oral interviews 
for Border Patrol Agent candidates (reactions to job-related 
situations), and a full medical examination. The applicant also 
undergoes Pre-employment Security checks that include FBI fingerprint/
criminal checks, a credit check, preliminary employment verification 
and subject interviews with OPM Contract Investigators. INS conducts 
NCIC checks on all Border Patrol Agent applicants. The OPM Investigator 
verifies the information listed in the security questionnaire completed 
by the applicant and gathers any additional information needed from the 
applicant during the subject interview. The background investigation is 
conducted to establish the applicant's trustworthiness, reliability, 
character, conduct and loyalty to the U.S. All of this information is 
analyzed to determine the applicant's suitability to become an INS law 
enforcement officer.
    Question 3. INS has established anti-corruption initiatives that 
include training on issues related to sexual harassment, cultural 
diversity and sensitivity, and integrity. What validation measures have 
been established to ensure that the anti-corruption efforts at INS are 
effective in achieving the desired goals and objectives?
    Answer. The INS training is evaluated by a three-tiered approach. 
The INS develops and monitors Level 1 (Reaction) and Level 2 
(Performance) instruments, and conducts the Level 3 (Field Operational 
Feedback) evaluation system. Level 3 uses survey research to query 
recent graduates of INS training programs in order to determine if the 
training (1) trained them to perform the job tasks they are required to 
perform and (2) trained them effectively. In order to accomplish this 
goal, a sample of graduates who received the training not more than 6 
months and not less than 3 months previously are surveyed. Each 
graduate's immediate supervisor is also queried. A scaled questionnaire 
asks the survey respondents to rate how effective the training was in 
enabling them to perform their job tasks. The respondents are also 
asked to supply information about additional training that is needed 
and about superfluous training that was given (if any), and suggestions 
for improvements to the training program.
                                 ______
                                 
                   Question from Senator Mike DeWine
    It is disturbing that ``all 28 of the INS and Customs employees who 
were convicted for drug-related crimes received background 
investigations or re-investigations that determined they were 
suitable.''
    Question 1. Have you reviewed the special background investigation 
procedures employed by the Central Intelligence Agency and the National 
Security Agency? In your opinion, would these procedures have ferreted 
out these 28 individuals? Does it make sense to incorporate any of the 
CIA/NSA investigative procedures into those of Customs?
    Answer. INS has reviewed the special background investigation 
procedures employed by CIA and NSA. Based on the following information, 
it is believed that their procedures would not have ferreted out all of 
the INS employees in question. The CIA/NSA investigative screening 
procedures are comparable to INS with regards to the background 
investigation. The requirements for the conduct for ALL background 
investigations on applicants for Federal employment in Executive Branch 
agencies are the same. The CIA and NSA have the additional requirements 
of polygraph examinations as well as psychological testing and medical 
evaluations of all applicants. INS does not conduct polygraph 
examinations on applicants. INS has reviewed the U.S. Office of 
Personnel Management (OPM) requirements for polygraph testing and 
determined that the vast majority of INS law enforcement positions do 
not fit into the OPM category of ``highly sensitive intelligence or 
counterintelligence mission directly the national security (e.g., a 
mission approaching the sensitivity of that of the Central Intelligence 
Agency).'' Most of the INS law enforcement officers do not have access 
to classified information. The need for national security information 
access at INS is not the same universal requirement as the CIA and NSA.
    The hiring process addresses the ``whole person'' aspect of the 
applicant and enhances the ability to screen out potential problem 
applicants very early in the process. This process includes drug 
testing, aptitude resting (ability to learn the job), applicant 
assessment (identify potential for counterproductive behavior), 
structured oral interviews for Border Patrol applicants (reactions to 
job-related situations), and a full medical examination. The applicant 
also undergoes Pre-employment Security checks that include FBI 
fingerprint/criminal checks, a credit check, preliminary employment 
verification, and Subject interviews with OPM Contract Investigators. 
INS conducts NCIC checks on all Border Patrol Agent applicants.
    The OPM Investigator verifies the information listed in the 
security questionnaire completed by the applicant and gathers any 
additional information needed from the applicant during the interview. 
The background investigation is conducted to establish the applicant's 
trustworthiness, reliability, character, conduct and loyalty to the 
U.S. All of this information is analyzed to determine the applicant's 
suitability to become an INS law enforcement officer.
                                 ______
                                 
                  Questions from Senator Jeff Sessions
    Question 1. Please provide a thorough description of your drug 
testing procedures, including but not limited to your random testing 
program. How often do you do the random tests? What is the percentage 
of positive tests over the last few years? What is the procedure for an 
employee who tests positive?
    Answer. Under Executive Order 12564, dated September 15, 1986, the 
INS conducts the following drug testing programs:
    (1) Applicant Testing.--All outside applicants who are tentatively 
selected for positions within INS are tested for illegal drug use. An 
INS employee who is tentatively selected for a position which is a 
testing designated position (TDP) for random testing, and who has not, 
immediately prior to the selection, been subject to random testing is 
tested for illegal drug use.
    (2) Random Testing.--Employees who are in TDP's are subject to 
random testing. TDP's include INS Officer Corps positions (e.g., Border 
Patrol agent, special agents, etc.), detention enforcement officers, 
positions in intelligence, top level management officials, positions 
requiring a national security clearance of secret or higher, positions 
in the Employee Assistance Program, attorney positions involved with 
drug or terrorism prosecution, computer and communication positions 
having access to classified or law enforcement information, operators 
and maintainers of vehicles who carry passengers or security 
information, aircraft pilots, mechanics, nurses, and firefighters. Our 
TDP's have been court tested, confirm to Office of National Drug 
Control Policy's ``Guidance For Selection Of Testing Designated 
Positions,'' and have been approved by the Executive Committee of the 
Interagency Coordinating Group.
    Individuals are selected for testing using a computer program, 
which identified social security numbers of individual's in TDP's, and 
randomly selects them. Because testing is random, testing may occur at 
any time, at any location, and an individual may be selected more than 
once.
    Random test lists are generated at least once a month. There is a 
list for each Region and Headquarters. We test 5 percent of the TDP 
population yearly. Testing is intended to be a continuous process.
    Over the last few years, the percentage of positive random tests 
have been less than 1 percent.
    (3) Reasonable Suspicion Testing.--This is testing based upon a 
reasonable suspicion that an employee may be using illegal drugs. 
Reasonable suspicion testing may be required of any employee in a TDP 
where there is a reasonable suspicion that the employee is using 
illegal drugs whether on or off duty. Reasonable suspicion testing may 
also be required of an employee in any position when there is 
reasonable suspicion of on-duty drug use or drug impaired work 
performance. However, an employee who is not in a TDP cannot be tested 
for off duty drug use.
    (4) Accident or Unsafe Proactive Testing.--This type of testing may 
be required under the following conditions:
    The accident results in a death or personal injury requiring 
intermediate hospitalization; or
    The accident results in damage to government or private property 
estimated to be in excess of $10,000.00.
    (5) Follow-up Testing.--Employees who are found to be illegal drug 
users, but are not terminated from INS, are subject to follow up 
testing for 1 year following successful completion of a rehabilitation 
program.
    (6) Voluntary Testing.--Employees who are not in a TDP may 
volunteer for random testing whereby their name will be included in the 
random test pool.
    The INS Drug-Free Workplace Plan requires a set of actions upon a 
finding of drug use by an employee. These actions include:
    Referral to the Employee Assistance Program. Removal from a 
sensitive position as appropriate. The initiation of corrective/
disciplinary action. Follow-up testing for those who are rehabilitated 
and remain employed.
                                 ______
                                 
                Questions from Senator Dianne Feinstein
    Question 1. What is your opinion on having legislation drafted that 
would require INS agents to file financial disclosure statements every 
3-5 years?
    Answer. The INS is currently researching the ability to use 
expanded versions of existing authorities to accommodate the 
requirement of Border Patrol Agents and Immigration Inspectors to 
complete a financial disclosure report. As noted in the response to 
Senator Graham's first question, the INS does not believe that 
implementing a separate financial disclosure system would achieve the 
perceived benefits.
    Question 2. How many corruption investigations are currently 
underway of INS personnel assigned to the Southwest Border? How does 
this compare with the number in 1998, and the last 4 years?
    Answer. The Office of the Inspector General (OIG), Department of 
Justice, is primarily responsible for corruption investigations 
concerning INS operations. That office informs us it had open 98 
corruption cases involving INS Southwest border operations as of May 
13, 1999. That figure includes a small number of cases that have been 
substantially completed but cannot be officially closed until judicial 
action is concluded. As of that date in 1998, 1997, 1996, and 1995, the 
OIG had open 90, 87, 85, and 80 such corruption cases, respectively. 
Please note the following points regarding these figures:
    The cases comprise fraud, bribery, and drug cases.
    Included are cases involving attempts to corrupt INS employees, 
whether or not INS employees were investigative subjects. For example, 
in some cases employees are offered bribes but rather than accept them, 
report the offers to the appropriate authorities. In those cases, the 
bribe offerors are subjects but the employees are not.
  

                                <greek-d>

</pre></body></html>
